<html>
<title> - THE ROOTS OF VIOLENT ISLAMIST EXTREMISM AND EFFORTS TO COUNTER IT</title>
<body><pre>[Senate Hearing 110-942]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-942
 
   THE ROOTS OF VIOLENT ISLAMIST EXTREMISM AND EFFORTS TO COUNTER IT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
44-123                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                         Todd M. Stein, Counsel
                    Marc B. Cappellini, FBI Detailee
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                    John K. Grant, Minority Counsel
                    Lisa M. Nieman, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S



                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Voinovich............................................    27

                               WITNESSES
                        Thursday, July 10, 2008

Maajid Nawaz, Director, The Quilliam Foundation, London..........     5
Peter P. Mandaville, Ph.D., Associate Professor of Government and 
  Politics, George Mason University..............................    10
Zeyno Baran, Senior Fellow and Director of Center for Eurasian 
  Policy, Hudson Institute.......................................    14
Fathali M. Moghaddam, Ph.D., Professor, Department of Psychology, 
  and Director, Conflict Resolution Program, Department of 
  Government, Georgetown University..............................    18
Michael E. Leiter, Director, National Counterterrorism Center....    36

                     Alphabetical List of Witnesses

Baran, Zeyno:
    Testimony....................................................    14
    Prepared statement...........................................    68
Leiter, Michael E.:
    Testimony....................................................    36
    Prepared statement...........................................    95
Mandaville, Peter P., Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    57
Moghaddam, Fathali, M., Ph.D.:
    Testimony....................................................    18
    Prepared statement...........................................    83
Nawaz, Maajid:
    Testimony....................................................     5
    Prepared statement...........................................    49

                                APPENDIX

``Report on the Roots of Violent Islamist Extremism and Efforts 
  to Counter It: The Muslim Brotherhood,'' by Steven Emerson, 
  Executive Director, Investigative Project on Terrorism, 
  submitted for the Record by Senator Coburn.....................   102
``The Muslim Brotherhood's US Network,'' February 27, 2008, 
  article submitted by Zeyno Baran...............................   119
Questions and responses for the Record from:
    Mr. Mandaville...............................................   137
    Mr. Baran....................................................   140
    Mr. Leiter...................................................   144


   THE ROOTS OF VIOLENT ISLAMIST EXTREMISM AND EFFORTS TO COUNTER IT

                              ----------                              


                        THURSDAY, JULY 10, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, Voinovich, and 
Coburn.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and we will convene the 
hearing. Welcome to the seventh in a series of hearings this 
Committee has held and is holding to examine the unique threat 
posed by what we have called ``homegrown'' violent Islamist 
extremism and to determine what steps we can and should take to 
identify, isolate, and ultimately eliminate this threat and the 
ideology that supports it.
    On May 8, the Committee released a bipartisan staff report 
titled, ``Violent Islamist Extremism, the Internet, and the 
Homegrown Terrorist Threat.'' That report concluded that the 
use of the Internet by Islamist terrorist organizations has 
increased the threat of homegrown terrorism in the United 
States because individuals can essentially self-radicalize over 
the Internet.
    Since then, about a month ago, a college student in Florida 
plead guilty to a charge of material support for terrorism. 
According to the plea agreement, the student admitted to 
producing a video that he uploaded to YouTube which 
demonstrated and explained in Arabic how a remote-controlled 
toy car could be dissembled and the components converted into a 
detonator for an explosive device. The student admitted in the 
court papers that in producing the video, he intended to help 
those who wanted to attack American servicemen and 
servicewomen.
    So we are here today to learn more about the ideology 
behind terrorism, the ideology that inspires people, including 
young people like the student in Florida, to take such hateful, 
violent, and anti-American actions.
    The 9/11 Commission Report, I think, outlined quite 
eloquently and succinctly the dual challenges that we face. It 
is said, and I quote, ``Our enemy is two-fold.'' They mentioned 
specifically ``al-Qaeda, a stateless network of terrorists that 
struck us on September 11, 2001,'' and second, ``a radical 
ideological movement in the Islamic world inspired in part by 
al-Qaeda,'' but I would add not only inspired by al-Qaeda, but 
that al-Qaeda is in effect a result of that radical ideological 
movement.
    Our first witness on the first panel is Maajid Nawaz. He 
will offer the Committee insights into that ideology and the 
role it played in driving him to become a member at age 16 and 
eventually a leader of the Islamist extremist organization Hizb 
ut-Tahrir, or the Liberation Party, in the United Kingdom. 
Although Hizb ut-Tahrir, which is called for short HT, claims 
that it is non-violent, the exposure of its members to a very 
extreme form of Islamist ideology seems often to have laid the 
foundation for the planning and execution of terrorist attacks. 
Mr. Nawaz recruited others, including his own family, to join 
HT and was sent to Pakistan and Denmark to set up additional 
cells. He was later arrested in Egypt in 2002 for being a 
member of the organization, and in fact was in prison for 4 
years.
    Upon release, Mr. Nawaz returned to England, where he 
eventually denounced the organization and the ideology that was 
at its foundation. Today, Mr. Nawaz is one of two directors of 
the Quilliam Foundation in the United Kingdom, a 
counterextremism think tank committed to discrediting the 
Islamist ideology that inspires Islamist terrorism around the 
world.
    Mr. Nawaz, it is my understanding that this is your first 
visit to the United States and I wanted to extend a personal 
welcome to you, but also a thank you to you for making the 
effort to travel this distance to testify before our Committee. 
I believe your testimony is very important to our purpose.
    The other three witnesses are equally distinguished and I 
know will be equally helpful to the Committee. They have 
extensive experience studying Islamist movements around the 
world--Dr. Peter Mandaville, Zeyno Baran, and Dr. Fathali 
Moghaddam. We look forward to your testimony and your 
collective insight into this ideology and the organizations 
that espouse it. As the three of you know, we are particularly 
interested in how the ideology facilitates the radicalization 
process, the end point of which is, of course, the planning and 
execution of terrorist attacks, which it is our aim to stop.
    Our second panel today will have one witness. That is the 
Director of the National Counterterrorism Center, Michael 
Leiter. This is the Committee that initiated the legislation 
that created the National Counterterrorism Center, so we are 
always proud in a somewhat paternalistic and maternalistic way 
to welcome Mr. Leiter, its Director, to testify.
    I close with another quote from the 9/11 Commission Report 
as follows: ``Our strategy,'' the Commission said, ``must match 
our means to two ends, dismantling the al-Qaeda network and 
prevailing in the longer term over the ideology that gives rise 
to Islamist terrorism.'' I agree. The testimony of our 
witnesses today, I am confident, can help us measurably in our 
efforts to better understand the roots of Islamist ideology, to 
distinguish it, of course, from Islam, with the overall purpose 
of better directing our international, national, and local 
efforts to counter the spread of this ideology and to stop the 
terrorism it aims to inspire.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, I, 
too, saw Michael Leiter outside in the anteroom and he said 
that he was looking forward to testifying before the father and 
the mother of the National Counterterrorism Center, so 
obviously he is thinking along those same lines that you are. 
On a more serious note, he did say that he thought the Center 
was operating very well and was bringing a great deal to our 
counterterrorism operations.
    I am very pleased to be participating in this important 
hearing this morning. Islam is a major world religion with more 
than one billion adherents worldwide. Like most other 
religions, Islam has myriad variations that are adopted or 
rejected by people from all walks of life who view these 
different alternatives through the lens of their own 
experiences.
    Obviously, but I believe it bears repeating today, the vast 
majority of Muslims lead peaceful lives following the tenets of 
faith, prayer, fasting, charity, and pilgrimage that 
characterize mainstream Islam. There are also some Muslims who 
subscribe to an extreme variation of Islamic ideology that is 
antithetical to our Western culture and our constitutional 
democracy. Yet they, too, may pose no threat to our way of life 
nor to the free exercise of other faiths.
    But there also exists a subset of violent Islamist 
extremists who seek to impose their world view, including the 
creation of a global totalitarian state, through all means, 
including violence. These terrorists turn to violence to 
achieve their ideological goals, seducing recruits and 
supporters with religiously laced rhetoric that legitimizes and 
in some cases exalts violence.
    To better understand the roots of violent Islamist 
extremism, this Committee is exploring the radical religious 
ideology that can be used to incite or justify acts of terror. 
Specifically, we seek the answers to the following questions:
    Is a certain ideology a necessary, albeit not sufficient, 
factor in leading an individual to embrace violence? How do 
some extremists use the ideology to legitimize terrorist acts 
and incite others to commit them? What other factors contribute 
to turning an individual from the non-violent advocacy of an 
ideology to violent extremism? How can we deter the use of 
violence in the support of any ideology?
    Learning more about Islamist extremist ideology is 
important, but it is only part of our inquiry. To understand 
why an individual becomes violent, we must also consider other 
triggers, including the social, political, and psychological 
factors that may combine with ideological fervor to lead 
recruits down the path to terrorism.
    This is a complex area of inquiry. It is not susceptible to 
easy analysis nor quick fixes. I do not believe that we can say 
that ideology is the root cause of terrorism any more than we 
can say that racism or perceptions of injustice or oppression 
are sufficient in and of themselves to explain violent 
extremism. Indeed, experts have debunked myths that all 
terrorists are psychotic, poor, uneducated, or otherwise fall 
within an easily identifiable profile. To actually gain a 
better understanding of all the factors that might contribute 
to terrorism, we must also work with the leaders in the 
American Muslim community to address these root causes and to 
delegitimize violence as the means of promoting a system of 
beliefs.
    As the Committee explores these issues, we must be clear 
that our efforts are designed to prevent terrorism, not to 
suppress the peaceful expression of ideas, even those beliefs 
which are repugnant to us. For example, I am alarmed when 
extremist ideology is used to justify the oppression of women 
or those of other religious faiths. As a public official, 
however, my personal abhorrence cannot color my judgment as to 
the fair treatment of those who may espouse that ideology as 
long as it is not accompanied by violence.
    Let me emphasize the point. I condemn any group or 
individual of any ideology that supports, condones, finances, 
or otherwise uses terrorism to advance their goals. But let me 
say in equally uncertain terms, I also condemn any action by 
any government that would punish individuals merely for the 
exercise of their unalienable rights to worship and speak as 
they choose.
    More than 230 years ago, as this country declared its 
independence from tyranny, it also declared through the 
protections of the First Amendment of our Bill of Rights that 
on these shores, the clash of ideas would be waged with words, 
not with guns and bombs. To that end, our duty as policy makers 
is to protect the political institutions that give individuals 
the right to express their views and exercise their rights 
without resorting to violence. For in a world where terrorists 
kill innocent men, women, and children to forcefully impose 
their beliefs on others, the true battle is between those who 
are violent and those who are not.
    The Constitution protects an individual's right to hold any 
belief he or she may choose. This constitutional principle also 
underlies some of the unique features of the American way of 
life that thus far have helped to prevent violent extremism 
from taking root in this country. Those values, such as the 
openness of our society, tolerance for different viewpoints, 
and the assimilation of peoples of different faiths and 
ethnicities, are incompatible with extremist ideas like the 
suppression of other religions.
    This is the ongoing struggle, and today, we are continuing 
our efforts to better understand the triggers of violent 
extremism and the threat that they pose to our way of life.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. Thank you very 
much, and thank you, Senator Coburn, for being here.
    Senator Coburn. Mr. Chairman, I am not going to be able to 
stay, but I would like unanimous consent to enter something 
into the record, if I may.\1\
---------------------------------------------------------------------------
    \1\ ``Report on the Roots of Violent Islamist Extremism and Efforts 
to Counter It: The Muslim Brotherhood,'' by Steven Emerson, Executive 
Director, Investigative Project on Terrorism, submitted for the Record 
by Senator Coburn appears in the Appendix on page 102.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, it is so ordered, 
and we will welcome you as long as your schedule allows you to 
stay.
    Mr. Nawaz, we are going to go to you first. Thank you again 
for taking the time and making the effort to come from the 
United Kingdom.
    Mr. Nawaz. Thank you.
    Chairman Lieberman. We welcome your testimony now.

     TESTIMONY OF MAAJID NAWAZ,\1\ DIRECTOR, THE QUILLIAM 
                       FOUNDATION, LONDON

    Mr. Nawaz. Thank you, Chairman Lieberman and Ranking Member 
Collins. I really don't think I can add anything more to what 
you have just said, so really, perhaps I should just go on now 
because what you just said is a very eloquent expression of 
what I believe. So thank you for that and thank you for having 
me here. I wish to congratulate the American people on the 
recent July Fourth celebrations. It is a shame I couldn't be 
here for those.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nawaz appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    But moving to the discussion of the day, I did join Hizb 
ut-Tahrir when I was 16 years old. I moved to London to recruit 
for Hizb ut-Tahrir. I joined Newham College, where I was 
elected as President of the Students' Union, and regrettably 
and sadly, due to the radicalization that occurred on that 
campus, myself and Ed Husain were both on the campus of Newham 
College at the same time--he is the author of the widely 
acclaimed book, ``The Islamist.'' Sadly, that radicalization 
eventually led to a situation where another student was 
murdered on campus by somebody who was a supporter of our 
activities, and really, that should have acted as a warning for 
me in those early days because what played out in Newham 
College ended up being the microcosm of what would play itself 
out much later on with the attacks on September 11, 2001, in 
the United States of America, and that is that people who were 
inspired by our ideology, Hizb ut-Tahrir's ideology, but merely 
differed with us in tactics, decided to use that very same 
ideology to bring about violence and chaos in this world.
    Ed Husain, when he saw the murder at Newham College, 
decided to leave Hizb ut-Tahrir. I very foolishly decided to 
stay, thinking that perhaps we could carry on with our 
intellectual mission rather than focusing on encouraging anyone 
who is violent to support us. But I didn't realize that the 
problem was not in necessarily the associations we made with 
people who were naturally inclined to violence, but the problem 
was in the very ideas themselves.
    I went on to, as you have mentioned, export Hizb ut-Tahrir 
to Pakistan from London and also to Denmark from London. I also 
know by personal experience that Hizb ut-Tahrir was exported 
from London to many other countries, including Indonesia and 
Malaysia. Europe generally acts as a diplomatic hub, a funding 
source, and a media platform for Islamist radicals, whether 
they be of the terrorist type or whether they be of the 
revolutionary or radical type.
    I ended up, as you mentioned, in Egypt where I was 
convicted to 5 years in prison for being a member of Hizb ut-
Tahrir, after taking a route via their torture dungeons in the 
headquarters of the state security, where people were 
electrocuted before my eyes for being associated with us. I was 
thankfully adopted by Amnesty International as a Prisoner of 
Conscience, and that was the first step for my heart to open up 
for the first time in 10 years after having joined Hizb ut-
Tahrir. I began to think in a way different to how I had been 
speaking and thinking about non-Muslims because Amnesty 
International extended the hand to me, despite the fact that I 
had been propagating that Amnesty International and other such 
human rights organizations were, in fact, the enemy to Islam 
and Muslims.
    And as you have mentioned, I left prison in 2006, returned 
to the U.K., and after having joined the Leadership Committee 
of Hizb ut-Tahrir, finally decided that I could no longer carry 
on with the hypocrisy that I felt inside me because I no longer 
believed in the Islamist ideology, and so I resigned.
    Now, what I would like to very quickly address is what I 
believe in the way to differentiate between Islamists and 
normal ordinary Muslims, and through my experience, the work we 
are doing in the Quilliam Foundation and also my academic 
studies, I went on to study for a Master's degree in political 
theory with modules in terrorism, conflict, and violence, in 
multiculturalism, and in religion and politics at the London 
School of Economics. I believe that we are able to identify 
four core elements that Islamists will share regardless of the 
tactics that they employ to bring about that ideology.
    I wish to discuss briefly about those four core elements, 
and then the different strands of Islamists who adhere to those 
four core principles and how they differ in their tactics, and 
then if there is time--I am very conscious I have to adhere to 
the 10 minutes--just to mention something about the role that 
grievances play in radicalization vis-a-vis ideology itself.
    So first of all, the four core elements that I think are 
common to all Islamists regardless of the methodology they 
employ--and the first one I identify is that Islamists believe 
that Islam is a political ideology rather than a religion. Now, 
traditionally, Muslims would believe that their faith is a 
religion, but Islamists insist, beginning from the 1920s with 
Hassan al-Banna, that Islam is, in fact, a political ideology. 
Now, the roots of that perhaps can come out later, but just 
very quickly, that is traced through the influence of communism 
in the Arab world, especially through the Arab socialism known 
as Baathism. A lot of the founding members of Islamists were 
inspired by Baathists, Arab socialists, including the founder 
of Hizb ut-Tahrir who used to be a Baathist.
    So the first point there, the implication of Islam being a 
political ideology rather than a religion, is that means there 
must be a perennial conflict between Islam and capitalism just 
like there was perceived to be a conflict, as well, between 
communism and capitalism, and that is one of the implications.
    Another implication is that because it is an ideology, it 
encompasses everything; there must be an Islamic solution to 
everything. There must be an Islamic economic system. There 
must be an Islamic car, as has recently been invented in 
Malaysia. Everything must be Islamized because it is an 
ideology that encompasses everything.
    The second core element that Islamists will all share is 
the notion that the Shariah religious code, which is a personal 
code of conduct, must become state law, and this is again a 
modern innovation alien to traditional Islam. Throughout the 
history of Muslims, the Shariah was never once adopted as a 
permanent state codified law. In fact, the whole notion of 
codified law is modern. But the Islamists will insist that the 
Shariah religious code must be state law, and if it is not, 
then the implication is that state is un-Islamic.
    The third principle is that Islamists will identify with a 
global community known as the Ummah, and they will consider the 
Ummah, or the Muslim global community, as a political identity 
rather than a religious identity. Again, drawing parallels from 
communism, this is easily understood when remembering the whole 
notion of the international proletariat, this global community 
where workers owe no other allegiance except to fellow workers, 
regardless of borders and ethnicity and nationality.
    Islamists have developed, again inspired by communism, the 
same notion of a global political community that owes no 
allegiance except to itself, and that is the political notion 
of Ummah rather than the prophetic understanding of ummah, 
which is as a religious community, and the Prophet himself in 
Medina, when he signed the Document of Medina, the famous 
document, used the word ummah, or nation, to refer to the Jews, 
the Christians, and the Muslims all living together in one 
city. Yet today, Islamists will use it just for Muslims as a 
global community.
    Fourth, and the final shared element for Islamists, is that 
this ideology with this law and that global political community 
needs to be represented by a bloc, like the Soviet bloc. It 
needs to be represented by an expansionist state, and that is 
the Caliphate, and this state will be expansionist because it 
represents that global community, and where that state's 
authority has not extended to look after the affairs of that 
global community, then it must reach them to liberate them from 
being enslaved either by the capitalists or the communists. 
Just like the USSR developed this bloc and the whole Eastern 
Bloc was expansionist and it had the whole notion of exporting 
the revolution, the Islamists, again inspired by the same 
ideals, have developed the same paradigm for Islamism.
    So this global expansionist Caliphate is the final shared 
element that all Islamists believe in, and they have made these 
four principles fundamental to the creed of Islam. So if a 
Muslim was to say that I do not believe the Shariah code should 
become state law, they would consider him a heretic or an 
apostate. Or if somebody was to say, I do not believe that 
Islam is a political ideology, they will consider there is 
something deviant in his creed. They have changed the religion 
to make the ideology itself the religion.
    Now, these shared elements, though common between all 
Islamists, this doesn't imply that Islamists are all of one 
shade. Islamists do differ in their tactics and methodologies. 
I have identified three types of Islamists. They are first 
either political Islamists, who are those who use entry-level 
politics and tactics by working within the system through the 
ballot box to try and bring about this ideology. These are, by 
and large, people who are non-violent, yet they have an 
ideological agenda. They are in some way a fifth column. Their 
agenda is to infiltrate the system and Islamize the system that 
they are working in.
    The second type of Islamist, again, from these four shared 
elements, are the revolutionary Islamists, such as Hizb ut-
Tahrir, the group that I was with, and their methodology is to 
infiltrate the militaries, to overthrow the regimes of the 
Middle East through military coups, and those in this category 
do not believe in using the ballot box or working through the 
system.
    And the final category of Islamists are the militant 
Islamists, or the jihadists, who believe in an armed struggle 
against the status quo.
    Now, the order of these three is deliberate because they 
developed in this way. In the 1920s, the political Islamists 
came about, and through the reaction to them, especially in the 
Middle East, they eventually became more harsh, more severe, 
and formed into the revolutionary Islamists, or Hizb ut-Tahrir, 
and from there, again, through reaction, Hizb ut-Tahrir 
inspired the jihadist elements, and I know this personally 
because the assassins of Sadat who I served time with in 
prison, those who weren't executed in the 1981 case, told me 
that their teacher was a man by the name of Salim al-Rahhal, a 
member of Hizb ut-Tahrir.
    I have to end there, so forgive me for----
    Chairman Lieberman. Do you want to take a minute more and 
just finish what you wanted to say?
    Mr. Nawaz. Sure. Thank you for that. So Salim al-Rahhal was 
a member of Hizb ut-Tahrir who taught--he was the instructor 
for the group that ended up assassinating Egyptian President 
Anwar Sadat. He was deported from Egypt and the group known as 
Talim al-Jihad was then formed by those very same people, but 
minus their instructor, they decided to then use a different 
tactic and that was of assassinations.
    I know this, as I said, because they spoke to me personally 
about these experiences, and Islamists developed through the 
torture in the Arab world from becoming political to 
revolutionary to jihadists. Ayman al-Zawahiri, who served time 
in the same prison that I was in, Mazra Tora prison, and Sayyid 
Qutb, who served time, again, in the same prison I was held, 
both had exposure to Hizb ut-Tahrir's ideas. Hizb ut-Tahrir is 
graffitied on the walls of those prisons.
    Ayman al-Zawahiri used to adhere to the same military 
method of recruiting from the army officers to instigate a 
military coup, which is why he never joined al-Gama'a al-
Islamiyyah in Egypt, who would go about through the direct 
action methodology of violence. These ideas came from Hizb ut-
Tahrir. Ayman al-Zawahiri speaks about the notion of how we 
must: One, destroy Israel; two, overthrow every single Middle 
Eastern regime; and three, establish the Caliphate. In 1953, 
these exact same three principles were put out there by Sheikh 
Taqiuddin al-Nabhani, who was the founder of Hizb ut-Tahrir. 
And when you hear Ayman al-Zawahiri's theory, it is exactly 
Hizb ut-Tahrir's theory as articulated in 1953.
    Finishing off, I just wanted to mention very briefly about 
how this ideology of Islamism, as has been identified, mixes 
with grievances to lead to radicalization. There is a common 
misperception on the left in the U.K. whereby they only speak 
about grievances as a cause for radicalization. Now, I had my 
own grievances growing up in Essex. Many of my friends were 
attacked, violently assaulted by racists. My friends have been 
stabbed before my eyes, my white English friends, simply for 
associating with me. I have been falsely arrested on a number 
of occasions and released with an apology, and I have never 
been convicted of a criminal offense in any country in the 
world. I had my own grievances. What makes somebody, who has 
localized grievances, turn into somebody who identifies with a 
global struggle in a country that has nothing to do with him?
    And again, I want to give the analogy of communism. If you 
take a Marxist, when a Marxist analyzes the Northern Ireland 
conflict, what we refer to in the U.K. as The Troubles, or when 
a Marxist analyzes the Israel-Palestine conflict, he will 
analyze that conflict through a meta narrative, through a 
theory that he has adopted. So a Marxist cannot but see these 
conflicts in the theory of class conflicts, as class struggle. 
So a Marxist will speak about the Israel-Palestine conflict as 
a struggle between classes, the bourgeois versus the 
proletariat, and the same with the Northern Ireland struggle 
because the way in which the grievances are interpreted is 
through the framework or the prism that the ideology provides, 
and Islamists have the same thing.
    So in my case, with the racism I experienced in the U.K., 
or the nationalist conflict that was playing out in Bosnia, how 
from seeing these as localized conflicts that required local 
solutions into perceiving them as a global struggle, and that 
is because the ideology came and reinterpreted those grievances 
for me and provided a new framework. And that framework for 
Islamists, unlike in the case of Marxists where it is workers 
versus bourgeoisie, for the Islamists, it is what is known as 
the perennial struggle of the truth versus the falsehood, 
Muslims versus non-Muslims.
    My country's intervention in Iraq is seen by Islamists as 
being solely inspired by non-Muslims who are attacking the 
Iraqis because they are Muslims. It is reinterpreting those 
grievances through that framework, and you can see how that 
framework will, in fact, end up in the radicalized person, the 
radicalized Muslim, in discovering grievances even if they 
weren't there because the framework itself defines those 
grievances for him.
    And what is key for us to understand is the way in which 
the grievances interact with the ideology to lead to a whole 
new set of grievances, which for an Islamist can be summarized 
in one sentence, and that is that God's law does not exist on 
this earth.
    I thank you. I have gone much over my time, so please, 
thank you very much for taking the time.
    Chairman Lieberman. Thank you, Mr. Nawaz. It was worth the 
extra time. Your testimony is very helpful, very clear, and I 
think very powerful.
    We now go to Dr. Peter Mandaville, a professor at George 
Mason University. Dr. Mandaville is the author of ``Global 
Political Islam'' and has done empirical research on how 
Islamist groups recruit in the United Kingdom and elsewhere. 
Thank you for being here and we welcome your testimony now.

TESTIMONY OF PETER P. MANDAVILLE, PH.D.,\1\ ASSOCIATE PROFESSOR 
      OF GOVERNMENT AND POLITICS, GEORGE MASON UNIVERSITY

    Mr. Mandaville. Mr. Chairman, Ranking Member Collins, and 
distinguished Members of the Committee, in violent Islamist 
extremism, the United States faces a complex, little 
understood, and rapidly evolving threat. I am grateful for the 
opportunity to address this important issue this morning and to 
provide some background information that I hope will help us to 
locate violent Islamism within the much broader and diverse 
universe of contemporary Islamist political thought and 
activism.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mandaville appears in the 
Appendix on page 57.
---------------------------------------------------------------------------
    I would also like to address the phenomenon of Islamism in 
the West, more specifically in the United Kingdom, and the 
question of what the United States might be able to learn from 
the U.K.'s experience of dealing with Islamism in recent years.
    So as to leave maximum time for the panel to take your 
questions, I will limit my remarks this morning to a brief 
summary of several points contained within the longer written 
statement I have submitted, although Senator Collins 
effectively delivered my testimony in her opening remarks, so I 
may be able to shorten that a bit.
    Just as Islam cannot be said to be a monolith, the same 
goes for Islamism as an ideological project. While it is 
possible to identify certain key figures and groups as being 
central to the genealogy of modern Islamism, those who have 
subsequently drawn on their ideas or organized themselves in 
their mold have often done so in widely varying ways, 
interpreting and adapting their views to disparate and 
sometimes even mutually exclusive agendas. Thus, today we can 
say that the broad ideological current of Islamism manifests 
itself in activist agendas that span the complete spectrum from 
democratic politics to violent efforts aimed at imposing 
Shariah law worldwide.
    There is a tendency today among many analysts of Islamism 
to define this ideology by very narrow reference to the most 
militant phase of the Egyptian Muslim Brotherhood's history. 
While activists and agitators holding to those extremist views 
can still be found today in the Muslim majority world, and also 
in Europe and in the United States, it would be inaccurate to 
characterize Islamism exclusively through them.
    Furthermore, it is important, I believe, to distinguish 
between the Muslim Brotherhood as a distinct organization and 
the Muslim Brotherhood as a broad current of thought. The two 
are not coterminous and the latter is far more diverse and 
varied in its ideational and activist manifestations.
    In seeking to identify root causes of extremist violence in 
the name of Islam, I think we also need to question today the 
extent to which the answer is to be found primarily in 
ideology. Millions of Muslims have read ``Milestones,'' the 
famous work of militant Muslim Brotherhood ideologue Sayyid 
Qutb, or have at some point come under the influence of 
Islamist ideology. Only an infinitesimally small number of 
them, however, have gone on to commit acts of violence.
    While ideas are undoubtedly important, as Mr. Nawaz has 
mentioned, they will only drive certain individuals to action 
if articulated in terms that resonate with and seem to provide 
solutions that address perceived life circumstances and needs. 
In this regard, I believe the sociological and particularly the 
psychological contextualization of Islamist ideology holds the 
key to understanding the conditions under which it potentially 
poses a violent threat, a topic I believe Dr. Moghaddam will 
address in some detail.
    Based on my own study and direct observation of 
socialization processes in radical, although not directly 
violent, Islamist groups in the United Kingdom such as Hizb ut-
Tahrir and al-Muhajiroun, I have identified the following 
factors as playing a particularly significant role in leading 
an individual to reconfigure his world view and aspirations in 
terms of the goals of the movement. Needless to say, the 
presence and relative importance of these factors can vary 
considerably from individual to individual. I hope also that 
raising these points will go some of the way towards answering 
the question that Mr. Nawaz ended on, that is, how it is that 
local grievances come to be articulated in terms of wider 
global projects.
    First, let me point briefly to some important generational 
differences around religion within Britain's Muslim 
communities. Younger Muslims often see their parents' sense of 
religiosity as out of touch and overly tainted by the cultures 
of the countries from which they emigrated. In contrast to this 
``village Islam,'' as they call it, the younger generation 
looks for a universal approach to religion, untainted by 
sectarian bias and cultural baggage, and moreover, one that can 
address the specific problems they face living in the West.
    This search for a universal Islam, however, can cut two 
ways. On the one hand, it can lead them to emphasize those 
aspects of Islam that resonate with universal values, such as 
tolerance, openness, pluralism, etc., or they can be led to 
equate the search for universal Islam with a focus on global 
Muslim causes, civilizational struggles, and fantasies of a 
renewed Shariah-based Caliphate.
    Most worrying about the violent strains of Islamist 
ideology in my eyes is the fact that it travels so well. It is 
portable precisely because it is so decontextualized and 
unencumbered by local practicalities. It is very easy under the 
right circumstances for almost any Muslim anywhere to see 
himself reflected in its story.
    Second, radical groups depend and prey upon those whose 
knowledge of religion is relatively weak. To this end, they 
will frequently target new converts to Islam or those who were 
born Muslim but whose sense of religiosity was only awakened 
later in life. Thus, someone steeped in traditional Islamic 
learning is actually better equipped with the resources needed 
to recognize the fraudulent and often decontextualized ideas 
that radical groups try to circulate as supposedly authentic 
Islamic knowledge. To this end, we might consider to what 
extent a scaling up of the right kind of religious education, 
rather than a wholesale deemphasizing of Islamic education in 
favor of secular subjects, might be an effective tool in 
countering violent Islamism.
    Third, Islamist radicalism often succeeds in providing a 
sense of identity, purpose, and a framework through which to 
participate in confrontational politics. It is often 
particularly appealing to those of hybrid or mixed identity who 
are well educated and newly attuned to global political issues, 
that is, easily influenced young people trying to find a way 
for themselves in the world. As we already know, recruitment 
into radical movements, particularly in the West, does not 
correlate with socio-economic disenfranchisement or low levels 
of educational attainment. Quite the opposite.
    Those drawn to these ideologies often have a sense of 
Muslims as an oppressed group, drawing on, in the case of the 
U.K., a very tangible and real sense of social discrimination, 
even where they do not have first-hand experience of this 
discrimination themselves. In other words, there is a displaced 
political consciousness that convinces itself that it must 
fight on behalf of those who cannot fight for themselves.
    Finally, moving now beyond the more structured environment 
of known Islamist groups such as Hizb ut-Tahrir and into the 
less-charted waters of what Marc Sageman recently called 
``leaderless jihad,'' it is in my mind increasingly debatable 
whether we are dealing with a full and systematic political 
ideology as our chief nemesis in the realm of ideas or whether 
an increasing number of young Muslims drawn to violent 
extremism are doing something more akin to role playing 
themselves within a grand narrative of inter-civilizational 
struggle, or aspiring to some kind of superhero status, taking 
their pointers from larger-than-life figures in video games, 
movies, and popular culture as much as from religious scholars 
and systematic political ideologies. Such a trend, I believe, 
would represent a particularly dangerous development because it 
would point to the possibility of an individual moving very 
quickly to a point where he is willing to use violence without 
having to be systematically staged through various levels of 
ideological radicalization.
    Let me conclude this morning by making three broad points. 
First, we were asked to address the question of how a more in-
depth understanding of the ideology of violent Islamism can 
improve America's national security. We need to recognize that 
violent Islamism is part of a wider ecology of Muslim and 
Islamist thought and practice. By developing a better 
understanding of that ecology, we will have a greater capacity 
to discern who else within that ecosystem has the capacity to 
work against the growth of the extremist current. I believe 
that our efforts thus far to address this question have failed 
to think effectively and creatively about the question of 
potential Muslim partners and allies.
    Moreover, and although it may seem counterintuitive to say 
so, I would suggest that some of the most valuable 
contributions to combatting terrorism in the name of Islam have 
and can come from those who have passed through or who operate 
on the fringes of Islamist groups and movements. This is, 
however, very complex territory, riddled with many, and 
sometimes dangerous, shades of gray.
    Second, I would like to highlight what I have consistently 
emphasized to be the growing importance and concern that I have 
around groups such as Hizb ut-Tahrir in the post-September 11, 
2001, and July 7, 2005 environments. HT in the U.K. has 
responded very effectively to the polarizing political 
environment around Islam and Muslims. In recent years, the 
group has also undergone something of a cosmetic makeover so as 
to render it palatable to a constituency beyond the angry 
university cohorts that were its mainstay in the 1990s.
    While it publicly recants violence and while the number of 
active HT members may not be swelling, I think it is fair to 
say that the ranks of the group's passive supporters have 
increased considerably in recent years. And while HT may not be 
the direct conveyor belt into terrorism that some have implied, 
there is no doubt that the world view it espouses is 
particularly divisive and can render its followers ripe for 
cultivation by the enablers of militant agendas. Given the 
particular expertise and experience of two of our other 
panelists this morning, I am sure we will be hearing more about 
this group.
    Finally, we should consider the question of what the United 
States might be able to learn from the U.K. experience with 
radical Islam. In this regard, I think it would be particularly 
useful to look at some of the pros and cons of various policy 
responses of the U.S. Government and law enforcement agencies 
and also the efforts of various Muslim organizations in the 
U.K., also to mixed result. In the interest of time, I will not 
be able to provide a full inventorying of what has and hasn't 
worked in the U.K. in terms of policy and around Muslim 
organizations, but would be more than happy to answer questions 
on this issue.
    In my written statement, I addressed the crucial 
differences between Muslim communities in the U.K. and the 
United States in terms of levels of socio-economic attainment 
and social integration. On the surface, it would seem that many 
of the factors that allow violent Islamist ideologies to find a 
receptive audience in Europe are simply not present in the 
United States, and yet the number of abortive plots and arrests 
made in this country over the past few years suggest that the 
potential for homegrown terrorism exists here, as well.
    While thus far these seem to be largely isolated incidents 
with little evidence of a more systematic trend at work, it is 
likely that we will continue to see efforts by limited numbers 
of American Muslims inhabiting the dense mediascapes of 
YouTube, online social networking, and jihadi websites to try 
to bring their violent fantasies to fruition. While the theory 
of leaderless jihad means that this kind of activity will be 
increasingly difficult for any government or law enforcement 
agency to detect, it is not all about self-starter, do-it-
yourself terrorism. Enablers of militancy and divisive Islamist 
activists still play a role in priming the environment, and 
where the individuals, entities, and spaces to which they 
operate can be discerned, action can be taken.
    Thank you for your attention and again for the opportunity 
to address the Committee this morning.
    Chairman Lieberman. Thank you very much, Dr. Mandaville. 
Excellent statement, and I promise you we will in the question 
and answer period ask you to talk some about what your studies 
of the activities of the government in the U.K. have shown and 
what they tell us about what might work here and what might 
not. Thank you.
    Our next witness is Ms. Zeyno Baran, the Director of the 
Center on Eurasian Policy and a Senior Fellow at the Hudson 
Institute, where she researches strategies aimed at stemming 
the spread of radical Islamist ideologies, particularly in 
Europe. Ms. Baran has done a great deal of research also on the 
Muslim Brotherhood movement around the world, including here in 
the United States, and in February published an article 
entitled, ``The Muslim Brotherhood's US Network,'' which I 
would enter into the record of this hearing in full.\1\
---------------------------------------------------------------------------
    \1\ The article appears in the Appendix on page 119.
---------------------------------------------------------------------------
    Thank you for being here and we welcome your testimony now.

TESTIMONY OF ZEYNO BARAN,\2\ SENIOR FELLOW AND DIRECTOR, CENTER 
             FOR EURASIAN POLICY, HUDSON INSTITUTE

    Ms. Baran. Thank you, Mr. Chairman, Ranking Member Collins, 
and Senator Voinovich. Thank you for the opportunity to appear 
before you today. I would like to submit my written statement, 
please, and summarize.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Baran appears in the Appendix on 
page 68.
---------------------------------------------------------------------------
    I will very briefly discuss what is at the root of violent 
Islamist extremism, which I believe is Islamist ideology. Mr. 
Nawaz has explained it in great detail, so I am grateful to him 
and I will skip certain parts of my presentation. Second, I 
will talk about the institutionalization of Islamism in 
America, which is, I think, a very serious problem, a growing 
problem. And finally, I will highlight some areas in which I 
think the U.S. Government has adopted self-defeating policies 
and then suggest some alternatives.
    I understand for most Americans, dealing with Islamism is 
extremely difficult because it is associated with Islam. Very 
few people dare to question beliefs or actions of Muslims 
because nobody wants to be called a bigot or an Islamophobe. 
That is why we need to be very clear. What needs to be 
countered is Islamism, the political ideology, not Islam, the 
religion.
    The religion itself is compatible with secular liberal 
democracy and basic civil liberties. The political ideology, 
however, is diametrically opposed to liberal democracy because 
it dictates that Islamic law, Shariah, to be the only basis for 
the legal and political system that governs the world's 
economic, social, and judicial mechanisms and that Islam must 
shape all aspects of life. Although various Islamist groups 
differ over tactics, they all agree on the end game: A world 
dictated by political Islam. While many do not openly call for 
violence, they provide an ideological springboard for future 
violence.
    The first modern Islamist movement, as we know, is the 
Muslim Brotherhood, and numerous splinter groups came out of 
it, often more radical, and they have in turn given rise to yet 
more splinter groups. So consequently, there is now an 
exponential growth of fairly radical Islamist organizations 
active all over the world, including in cyberspace. Of course, 
not all Islamists will one day become terrorists, but all 
Islamist terrorists start with non-violent Islamism.
    For example, Khaled Sheikh Mohammed, the mastermind of 
September 11, 2001, was first drawn to violent jihad after 
attending Brotherhood youth camps. In fact, the Muslim 
Brotherhood's motto says it all: Allah is our objective. The 
Prophet is our leader. The Koran is our law. Jihad is our way. 
Dying in the way of Allah is our highest hope.
    Islamism is ultimately a long-term social engineering 
project. The eventual Islamization of the world is to be 
enacted via a bottom-up process. Initially, the individual is 
Islamized into becoming a true Muslim. The process requires the 
person to reject Western norms of pluralism, individual rights, 
and the secular rule of law. The process continues as the 
individual's family is transformed, followed by the society, 
and then the state. Finally, the entire world is expected to 
live and be governed by Islamist principles. So it is this 
ideology machinery that works to promote separation, sedition, 
and hatred, and that is at the core of Islamist violent 
extremism.
    I think it is important to underline that violent Islamists 
believe they are engaged in what is called a defensive jihad, 
which has broad acceptance among many Muslims. The logic is 
that under ``just war theory,'' armed jihad can be waged when 
Muslims and Islam is under attack. And since the West is waging 
war against Islam, if not militarily then culturally, Muslims 
have an obligation to participate in a defensive jihad.
    Now, let me very briefly discuss two Brotherhood splinter 
groups to show how these groups progressively become more 
radical. Hizb ut-Tahrir (HT), was founded by a Brotherhood 
member who over time wanted to use a more radical methodology 
and started his own organization. HT's key focus has been the 
creation of a worldwide Islamic community, Ummah, and the 
reestablishment of the Caliphate. For many decades, these ideas 
were considered extreme. More recently, they have been adapted 
as mainstream by most Islamists.
    HT members claim to want freedom and justice; but the 
freedom they want is, I believe, freedom from democracy, and 
the justice they want can only be found under Islamist rule. 
Under such rule, Muslims who do not abide by Shariah law will 
be, in their terms, considered as apostates and liable to 
punishment according to Islamic law. Or to put it more 
directly, they will be executed.
    The freedom and justice HT seeks by overthrowing democracy 
can often only be attained through violence. However, HT is not 
likely to take up terrorism itself. Terrorist acts are simply 
not part of its mission. HT exists to serve as an ideological 
and political training ground for Islamists. That is why I have 
called them a conveyor belt to terrorism. In order to best 
accomplish this goal, HT will remain non-violent, acting within 
the legal system of the countries in which it operates. 
Actually the same can be said about many of the Islamist 
organizations, including the Brotherhood. These groups do not 
need to become terrorists because winning the hearts and minds 
is much more effective in achieving the ultimate goal. But, of 
course, they do not rule out the use of force if they cannot 
establish their Caliphate via non-violent means.
    HT has led to the formation of even more radical and 
militant groups than itself, such as al-Muhajiroun. The 
founder, again, was at first with the Muslim Brotherhood, then 
became an Hizb ut-Tahrir member, and when he had a falling out 
with the leadership of HT over tactics, he formed an even more 
radical organization. Note that the difference in all these 
splits was not about ideas or ultimate goal. It was about how 
best to achieve them.
    Al-Muhajiroun has direct links to Osama bin Laden, to Hamas 
and Hezbollah, and blatantly advocates for terrorist acts. Over 
the years, it has sent hundreds of British men to Afghanistan 
and Pakistan for jihadi training. Some of those came back and 
attacked their homeland on July 7, 2005.
    Now, as we know, people don't just wake up one day and 
randomly decide to commit a violent act. There is almost always 
a process of radicalization and a network of like-minded people 
who become enablers. In the West, Muslims undergoing an 
identity crisis are the most vulnerable. There are also those 
who are perfectly well adjusted and integrated and simply want 
to learn more about their religion. If these well-meaning 
citizens end up getting their information from Islamists, they, 
too, can become radicalized over time, and that is precisely 
why we need to be concerned that the most prominent Muslim 
organizations in America were either created by or are 
associated with the Muslim Brotherhood and are, therefore, very 
heavily influenced by Islamist ideology. In fact, over the 
course of four decades, Islamists have taken over the 
leadership in almost all Islam-related areas in America, and 
today, as a recent New York Police Department (NYPD) report 
also stated, there is a serious homegrown threat in the United 
States.
    How did this happen? Muslim Brotherhood members from the 
Middle East and South Asia began coming to the United States in 
the 1960s as students, and then they received money and other 
support from the Gulf, mostly from the Saudis, to undertake a 
whole range of activities to change the perception of Islamism 
and Wahhabism in America from extremist to mainstream. And I 
think they have been fairly successful.
    Following the bottom-up approach that I mentioned, focusing 
on education, the first organizations were created in America 
were the Muslim Student Associations in universities. After 
they graduated, the North American Islamic Trust (NAIT) was 
created in order to expand these radical ideas, and extend the 
influence of Islamism beyond college campuses. In the 1980s, 
several other prominent Islamist organizations were created, 
including the Islamic Society of North America (ISNA), the 
Islamic Association for Palestine (IAP), and after Hamas was 
created in 1987 in Gaza, the IAP became its leading 
representative in North America.
    There are a whole set of other organizations that can be 
added to this list. I will just mention the Council on American 
Islamic Relations (CAIR), which I believe was created by the 
Brotherhood to influence the U.S. Government, Congress, Non-
government organizations (NGOs), along with academic and media 
groups. Despite being founded by leading Islamists, CAIR has 
successfully portrayed itself as a mainstream Muslim 
organization over the past 15 years and has been treated as 
such by many government officials, including Presidents Clinton 
and Bush.
    What is critically important in all these organizations is 
their support for one another. The same leaders appear in 
multiple organizations, tend to have familiar relations, and 
move within the same closed, trusted circles. Outwardly, they 
all appear to be different entities, but they are actually part 
of a carefully planned Islamization effort.
    It is also very important to note that despite their 
outwardly moderate positions, NAIT, ISNA, and CAIR were all 
named as unindicted co-conspirators in a Federal case against 
the Holy Land Foundation for Relief and Development, which was 
charged with providing millions of dollars to Hamas. This trial 
provided us with a shocking set of documents. One document 
outlining the general strategic goal for the group in America 
explains that Muslims in America should consider their mission 
as a ``civilization jihadist'' responsibility, which they 
describe as a kind of grand jihad in ``eliminating and 
destroying the Western civilization from within and sabotaging 
its miserable house by their hands and the hands of the 
believers so that it is eliminated and God's religion is made 
victorious over all other religions.'' Clearly, in this case, 
jihad is not intended to be an inner personal struggle as it is 
often claimed by Islamists when they must explain when they are 
caught in calling for jihad.
    Therefore it is not surprising that large sections of the 
institutionalized Islamic leadership in America do not support 
U.S. counterterrorism policy. Far from it. They denounce 
virtually every terrorism indictment or investigation as a 
religiously motivated attack on Islam instead of considering 
whether the individual in question actually broke any laws. 
They instinctively blame legal accusations on McCarthyism or 
anti-Muslim conspiracies.
    So coming back to the title of this hearing, how can the 
U.S. counter this extremism and who can be the partners in this 
effort? First and foremost, U.S. Government entities and all 
those individuals tasked with so-called Muslim outreach need to 
know who they are dealing with before bestowing legitimacy on 
them as moderate Muslims. There have already been rather 
embarrassing cases of top government officials, including 
Presidents, posing with their moderate Muslim friends, only to 
find later that the person was providing funding to enemies of 
the United States.
    Many of the American Islamic organizations are established 
to further a political agenda. They are not civil rights 
groups. They are not faith groups. They are political entities 
with a very clear political agenda. Without this understanding, 
I believe all kinds of mistakes will continue to be made. For 
example, for months now, FBI agents have been trained by CAIR 
to be sensitive to Muslims. This is completely self-defeating.
    Second, it is an Islamist myth that U.S. support and 
engagement for truly moderate Muslims would discredit these 
Muslims in the eyes of the community. This, I believe, is a 
trick to keep the United States away from non-Islamists while 
the Islamists continue to enjoy all kinds of access and 
influence. Islamists thrive on U.S. support and engagement, 
which effectively legitimizes their self-appointed status as 
representatives of the Muslim community. This engagement also 
legitimizes their self-appointed ability to judge the 
Muslimness of others.
    Third, the mantra that only non-violent Islamists can pull 
radicalized Muslims away from terrorism is completely 
illogical. The reason that these people were radicalized is 
Islamist ideology. If the Brotherhood and related groups could 
keep these people under control, they would have done so 
already. These people either left Brotherhood organizations or 
do not want to be affiliated with them precisely because they 
have moved on to more radical platforms. So, as long as 
Islamism is actively spread, its ideas will continue to wreak 
havoc.
    The only true allies in countering an ideology that is 
fundamentally opposed to America and its ideas are those 
Muslims who share American ideas, or at the very least do not 
work to undermine them. This group includes the pious and the 
practicing, the liberal, the secular, and the cultural ones; 
the quiet but still the overwhelming majority of American 
Muslims. The Muslims that need active support are non-Islamist 
Muslims who understand the inherent incompatibility between 
Islamism's desired imposition of Shariah law upon society at 
large and Western society's pluralism and equality. Non-
Islamist Muslims are on the American side on the war of ideas. 
They can be practicing or not. That is irrelevant. After all, 
the issues the terrorists raise to gain support are often 
unrelated to Islam as a religion.
    I can go on and on, but I am already over my time, so in 
closing, I would like to underline that to effectively counter 
the further spread of violent manifestations of Islamism, the 
United States needs to seriously engage in countering the 
Islamist ideology and I believe a good start would be to reveal 
the deception of the Islamists, especially in America, and 
start working with true allies. Thank you very much.
    Chairman Lieberman. Thank you very much, Ms. Baran. That 
was, as somebody else would say, straight talk. I appreciate 
your testimony. I appreciate your courage, frankly, and we look 
forward to asking you questions, particularly about the line of 
your testimony regarding how the government finds organizations 
of what you have described as non-Islamist Muslim Americans.
    The final witness on this quite remarkable panel is Dr. Ali 
Moghaddam, a professor at Georgetown University and Director of 
the Conflict Resolution Program, also a Senior Fellow at the 
Center for Policy Education and Research on Terrorism. Dr. 
Moghaddam, thank you for being here and please proceed with 
your testimony.

    TESTIMONY OF FATHALI M. MOGHADDAM, PH.D.,\1\ PROFESSOR, 
  DEPARTMENT OF PSYCHOLOGY, AND DIRECTOR, CONFLICT RESOLUTION 
    PROGRAM, DEPARTMENT OF GOVERNMENT, GEORGETOWN UNIVERSITY

    Mr. Moghaddam. Chairman Lieberman, Ranking Member Collins, 
and Senator Voinovich, thank you for the invitation. Because 
ideology is a major focus here, let me begin by clarifying my 
own biases. Like hundreds of millions of other Muslims, I am 
hopeful that Islamic societies around the world, including in 
the Middle East, will move toward more openness in political, 
economic, and cultural terms. The open democratic Islamic 
society will be more peaceful, more productive, more affluent, 
more just for both women and men, and better for the global 
economy. To a significant degree, the higher oil prices are a 
result of the dictatorships, monopolies, corruption, and lack 
of open competition and inefficiency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Moghaddam appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    But to achieve a more open Islamic society, we need to 
overcome violent Islamist extremism. That is one of the 
obstacles. In order to evaluate this particular obstacle, I 
find it instructive to review the letter of invitation I 
received for this panel, which states the purpose of the Senate 
hearing to be to explore the ideologies as the root source for 
the radicalization of potential followers of al-Qaeda and other 
Islamist terrorist organizations around the world.
    I believe it is useful to critically assess the assumption 
that an ideology is the root source for the radicalization of 
potential followers of al-Qaeda and other Islamist terrorist 
organizations around the world. An ideology does not exist in a 
vacuum, nor does it arise in a vacuum, nor is it static, as 
religion is not static. Christianity 1,000 years ago was very 
different from Christianity today and we hope Islam will change 
in the direction that is more constructive, away from Islamist 
ideology, obviously.
    In the Georgetown University libraries, there are hundreds 
of books that write about very fanatical ideologies, including 
fundamentalist Christian ideologies that could be used to 
launch terrorist attacks. Why is it that Georgetown students do 
not become terrorists? Well, clearly, because the availability 
of violent Islamist ideology serves as a necessary but not a 
sufficient cause for terrorist action.
    We must ask, then, what are the factors that combine with a 
particular ideology to lead to violent Islamist extremism? How 
does an ideology supportive of violent Islamist extremism come 
to influence individuals to support and commit terrorist acts? 
I have addressed this question by adopting a big picture 
approach, exploring radicalization and terrorism in the context 
of both cultural evolution and globalization.
    In order to clarify my viewpoint, I find it useful to use a 
staircase metaphor. Think of a building with a staircase at its 
center. There are many floors and people are on these different 
floors. There are approximately 1.2 billion Muslims on the 
ground floor. On each of the floors that lead up to a terrorist 
act, there are different psychological processes. I have gone 
into the details in my written statement. For here, what I will 
do is just summarize.
    The millions of Muslims on the ground floor, they are, of 
course, potentially influenced by violent Islamist ideology, 
but there are many other factors. Some of the factors that I 
have explored are perceived injustice, relative deprivation, 
identity and inadequate identity in the Islamic world. I have 
argued that Islamic communities around the world are 
experiencing an identity crisis. Before us as Muslims, there 
seem to be two viable options at the moment. One option is to 
copy the West. The other option is to become a Salafist or to 
return to pure Islam.
    Now, why is there not a third alternative option? That is a 
very important question, particularly in Middle East. Why is 
there not a secular constructive alternative option? Well, the 
simple answer is that the regimes of that region in particular 
do not allow for a separate option. If you are in Egypt and you 
happen to be a secular politician, particularly during election 
time, you had better hide because you will either end up dead 
or in prison or you must escape abroad. So the potential for a 
third constructive identity, particularly in the near and 
Middle East, which is at the heart of the matter, is not there 
at the moment. I am going to come back to this later.
    So in the staircase of terrorism, the few people who do go 
and commit terrorist acts, they are influenced by many factors 
other than or in addition to the violent Islamist ideology.
    Let me now turn to specifically the idea of homegrown 
terrorism. I discuss this particularly in relation to what I 
call the distance traveled hypothesis. The distance traveled 
hypothesis simply states that the distance that an immigrant 
has to travel to reach an adopted land is very much related to 
the material resources needed. If you are coming from North 
Africa or the Middle East to the United States, you need a 
great deal more resources than to reach Turkey or France or 
England.
    If you look at the Muslim population in the United States, 
generally, this population is well educated relative to the 
indigenous population. It is relatively well off. The 
perception of openness in the United States is very important. 
Muslims in the United States in major centers such as Detroit 
and Los Angeles are doing relatively well. They perceive the 
system to be open in general and that is a very important 
factor.
    Another important factor related to the relative well-being 
of Muslims in the United States is that Muslims here are at a 
greater distance from the centers of radical Islamist ideology, 
such as Pakistan. This is a very different situation from 
Muslims in Germany, France, or England. And the historic 
advantage of the United States in assimilating immigrants--this 
is another factor to keep in mind. I am an immigrant to the 
United States and I have been an immigrant--I lived in England 
for a long time. I lived in Canada for 6 years. Relative to 
those countries, the United States is far better at 
incorporating and integrating immigrants. And part of the magic 
here is the American dream, the ideology that anyone can make 
it.
    Let me turn now to the final part of my testimony, and that 
concerns a huge challenge confronting the United States, 
particularly in the global context. This challenge has arisen 
because of globalization.
    Back in 1944, the great Swedish economist Gunnar Myrdal 
published a work that we all know, ``An American Dilemma.'' 
Myrdal pointed out that there was a contradiction between 
American ideology in terms of self-help, individual 
responsibility, equality of opportunity, freedom, etc., on the 
one hand, and racial discrimination on the other. Myrdal 
pointed out that this was a huge dilemma that would have to be 
resolved, and it was resolved. Eventually through legislation, 
through cultural reform, we have achieved equality in terms of 
opportunities in the United States.
    There is now a new global American dilemma. This dilemma is 
confronting us because, on the one hand, we have had in the 
last three decades at least a rhetoric of support for 
democracy, support for freedom, support for equality, etc., a 
rhetoric that says that democracy is not unique to the West or 
a monopoly of the West but should spread everywhere. On the one 
hand, we have this rhetoric. On the other hand, successive U.S. 
administrations have continued to support dictatorships in many 
countries in the Middle East. This dilemma has to be resolved 
because globalization would not allow it to continue, and I 
believe that it doesn't matter whether it is a Democrat or a 
Republican or an Independent in the White House----
    Chairman Lieberman. Thank you. [Laughter.]
    Mr. Moghaddam. What we need is a resolution of this 
conflict, of this dilemma, because the dilemma is reverberating 
around the world.
    If you go to the streets of Muslim countries in the Middle 
East, in North Africa, if you go to the Muslim communities in 
France, the South Asians in England, the Turks in Germany, you 
will find that in the communities there, they discuss this 
dilemma, and it needs to be resolved. Thank you.
    Chairman Lieberman. Thanks, Doctor. Very thoughtful 
testimony. You have been an excellent panel and I thank you 
all.
    We will start with a 7-minute round of questions by the 
Members. There may be a vote going off around 11, so hopefully 
we will each get in a round before we have to go over.
    Mr. Nawaz, again, thank you for being here. I have many 
questions so I am going to ask you and the others if you can 
keep your answers as brief as possible and still respond. I 
wanted to ask you, just in terms of your own experience, take a 
brief moment and tell us about how you were radicalized at 
college. In other words, what was the process? You mentioned in 
your testimony you had adequate grounds for grievance in your 
personal experience, but how did the radicalization process by 
HT occur?
    Mr. Nawaz. I can summarize that in two points, and that is 
a crisis of identity and a crisis of faith. Being born and 
raised in the U.K., growing up in Essex in the early 1990s, 
there were a lot of racist troubles in my home county and there 
were an organized group of racist thugs who would target us 
with violence. And so the questions arose in my mind as to 
exactly who I was. Was I British? Was I English? Was I 
Pakistani, which is the country of my grandfather? Was I 
Muslim?
    So these combined with the problems in the mosques--the 
imams of the mosques in those days were, and still are to a 
large extent today, imported from the Indian subcontinent. The 
standards of their education were poor relative to standards in 
the Indian subcontinent, let alone to the standards in the U.K. 
The tradition over there is that somebody who fails in his 
education is sent to become a mosque imam, and that is if he 
fails in his education in Pakistan. And yet this man comes to 
the U.K. who can't speak English and he is expected to lead a 
congregation in a mosque with the vast majority of the people 
that pray in the mosque being second- or third-generation 
British citizens who only speak English.
    So these two elements combined in me to create a crisis of 
both identity and faith, and Bosnia, as I mentioned earlier, 
was playing out in Europe, and up until that point, I had 
identified these problems purely as racial and Bosnia for the 
first time brought to the fore that there were white European 
Muslims, blond-haired, blue-eyed, who were being slaughtered 
despite the fact that they were Europeans.
    And it was at the vulnerable stage, being a teenager, being 
15, 16 years old, that I happened across a medical student who 
didn't have any of the obstacles in communication that the 
mosque imams had. He was a medical student, again, educated in 
the U.K., who could relate to my problems and had joined Hizb 
ut-Tahrir in London when he went to study. And he came across 
very articulately and provided the answers to the crises I had 
in my identity and faith and demonstrated that, in fact, my 
identity wasn't British and it wasn't Pakistani but these are, 
in fact, identities given to me by colonialists. My identity 
was something pre-colonial, and that was belonging to the 
global Caliphate. So he provided an ideology that gave me 
black-and-white answers to the very real grievances that I 
faced.
    Hizb ut-Tahrir's (HT) process of indoctrination is quite 
intense. A member is expected to sit for two solid hours 
minimum every week in what they refer to as a study cell, and 
discuss and engage in debate in this ideology, and that is a 
mandatory requirement for members of HT. And then when he 
becomes a member of the party, he is also expected to teach for 
a further two hours for his own cell, and that is the minimum 
and it will obviously be more than that if he is committed.
    So this indoctrination phase involves recalibrating those 
grievances, which are initially localized grievances, and 
turning them into something which is identified with a global 
struggle, and I think that we can't miss either of these. We 
have to consider the role that real grievances play in 
providing recruits who are not yet ideologues in joining the 
ranks of Islamist organizations and then the role that the 
ideology plays in reframing those grievances and turning them 
into some notion of a global or perennial conflict.
    Chairman Lieberman. I appreciate that answer very much.
    Ms. Baran made a statement. Obviously, we are talking here 
about distinguishing between the religion of Islam and the 
political ideology of Islamism. She said something I thought 
quite direct and provocative and important, which is, and I 
paraphrase, that all Islamist terrorists start with non-violent 
Islamism. Would you agree with that?
    Mr. Nawaz. One hundred percent.
    Chairman Lieberman. Let me now go to your definition of 
Islamism, the four characteristics you cited. Consistent with 
what we just said, these are not necessarily all of them 
violent, but they may be the precursor to violence. I was 
particularly struck, and I have been through this but I want 
you to talk about it, that you said that those who adopt the 
Islamist ideology are committed to making Shariah state law. So 
do we understand from that that the members of Islamist groups 
in the U.K., or in the United States, who themselves are not 
violent nonetheless are committed to making Shariah law the law 
of the U.K. or the United States as opposed to the existing 
law?
    Mr. Nawaz. Again, this is an ideational discussion, so in 
terms of practicalities and tactics, the groups will differ. 
Hizb ut-Tahrir does not target the Western world to establish 
the Shariah as state law. Rather, they don't even target the 
whole Muslim world. What they have decided to do practicality-
wise is identify key countries, Turkey being one of them, Egypt 
being another, Syria being another. Iraq used to be one of them 
until the intervention there. Pakistan definitely is one of 
them, which is why I was sent there when they acquired a 
nuclear bomb.
    They target key countries. If you notice with all these 
countries, they have military strength, and they target those 
countries with the purpose of gaining power first in those 
countries, which they call the starting point. The intention 
after that is to expand and then encompass the surrounding 
lands and eventually the whole world.
    Now, that is HT. The Brotherhood's organization, the 
Brotherhood has a similar understanding----
    Chairman Lieberman. The Muslim Brotherhood?
    Mr. Nawaz. The Muslim Brotherhood. They will target the 
Muslim world first and with a view to establishing side by side 
a federation of Islamic countries, which will then all 
eventually become one and then expand from there.
    The purpose of these organizations in the West, I again 
summarize into three points, and that is to recruit, and those 
recruits can then be sent back to Muslim-majority countries, as 
I was, to recruit in those Muslim-majority countries and they 
have the standing in society as being educated in the West, as 
speaking English, as being relatively more wealthy, and so they 
command that immediate respect.
    The second aim is to raise funds. Now, the Pound Sterling 
goes a very long way in Pakistan, I can assure you. It goes 
quite far here in the United States, as well. So it is to raise 
funds.
    Chairman Lieberman. Farther than we would like. [Laughter.]
    Mr. Nawaz. That is to my advantage. And the third is act as 
a political and diplomatic hub. London especially is the center 
for the international Arab media. Now, even before I left HT, I 
appeared on the media regularly, and in fact, BBC's ``Hard 
Talk'' interviewed me and I was able to use that as a platform 
to project what was even at the time a relatively moderate 
version of HT's ideology to my own internal confusions. 
However, HT and other Islamist organizations, particularly the 
Muslim Brotherhood, have been very successful in using the 
Western countries as a media and diplomatic hub.
    So those three general strands are what they are looking to 
achieve. But the establishment of the Shariah law as state law 
is focused on, for practical purposes, the Muslim-majority 
countries with a view to expanding after that.
    Chairman Lieberman. Very helpful. I am really out of time, 
but I want to give you, Ms. Baran, just a moment to get into 
this discussion, if you want to add anything to Mr. Nawaz's 
characteristics of Islamism as opposed to Islam, and if you 
want to say anything about what you take to be the goals of the 
Islamist movement within the United States.
    Ms. Baran. I agree with Mr. Nawaz. One thing I would like 
to add is that I am originally from Turkey, one of the 
countries where the groups would like to establish Shariah law. 
When I was growing up there, a very different understanding of 
Islam was mainstream. And when I first came to this country, I 
was quite surprised that I saw so much Islamism at university 
campuses, and I do believe, because I was also very actively 
involved as a student activist during the Bosnian war, if it 
wasn't for my background in a different type of an Islamic 
upbringing, I probably would have joined one of the radical 
organizations--probably Hizb ut-Tahrir.
    In the West, including in the United States, the focus is 
to enable having the Shariah law for Muslim communities--so 
having Shariah for American Muslims, having Shariah in certain 
parts of Britain for British Muslims. We see more and more of 
these discussions coming up. In Canada several years ago, it 
came very close.
    I think as these groups increase their activity, we will 
probably hear more demands for Shariah for American Muslims. 
They will say it will be compatible with the American legal 
system and probably there will be analogies made with Jewish 
traditions and others. But, of course, the big difference is 
what Mr. Nawaz said; that normally, you don't try to impose 
your belief on the whole society and community. The West, 
including the United States, is now the best place for 
Islamists because of the openness, and of the tolerance of many 
different ways of living. This is where the Islamist 
communities get organized, funded, provide the structure, but 
the focus still is to change the Muslim-majority countries.
    Chairman Lieberman. Thank you very much. Senator Collins.
    Senator Collins. Thank you. Ms. Baran, you gave us a very 
different picture this morning of the efforts of FBI agents to 
reach out to the Muslim community in our country. In previous 
hearings, witnesses have generally pointed to the FBI effort as 
being the model of outreach to the Muslim community. By 
contrast, in your testimony today, you stated, for months now, 
FBI agents have been trained by CAIR to be sensitive to 
Muslims, which you say is completely self-defeating. Could you 
expand on why you think the FBI's effort is not an appropriate 
and worthwhile one?
    Ms. Baran. Sure. Thank you. As I mentioned, CAIR was 
created by Muslim Brotherhood organizations. It has ideological 
and other connections to groups like Hamas. It does not 
represent the Muslim community as a faith community; it is 
mostly focused on political issues. Often, we hear CAIR 
raising, for example, civil rights issues. But if you look at 
the cases, it is almost exclusively of those Muslims who are 
following a particular Islamist way of thinking. Issues about 
Muslims that are not Islamist or don't follow a particular way 
of thinking are hardly ever raised.
    So I can give many other examples, but ultimately, it is 
about what CAIR will define as sensitive, being properly 
respectful and sensitive to Muslims. If, indeed, the Islamist 
thinking is the way as Mr. Nawaz outlined, then the agents are 
going to be misinformed and they will be overly sensitive and 
they will not be able to ask certain questions or go in certain 
directions. They are going to be told whatever they want to ask 
or do will be offensive to Muslims: It is in Islam. Don't touch 
this. Don't go there. So I believe they are not going to be 
properly prepared for the work they need to be doing. There are 
other ways to reach Muslim communities. It is not just through 
CAIR, I believe.
    Senator Collins. Whom should the FBI be dealing with?
    Ms. Baran. Well, if the issue is to reach to communities--
--
    Senator Collins. Right.
    Ms. Baran [continuing]. Then other community organizations. 
There are women's groups. There are all kinds of groups that 
are not organized based on an Islamic political issue. There 
are other forums; a whole set of non-Islamist-based 
organizations.
    Now, going back to Chairman Lieberman's question, where do 
you find those non-Islamist Muslims, or Muslim organizations? 
Well, as I said, some of these organizations that are there now 
and are easy to work with, they have been created over a period 
of decades with billions of dollars coming from the Gulf. So 
there is this established network and structure and money 
already there.
    The alternative never has gotten support. This foundation 
that Mr. Nawaz is involved in was only created in January of 
this year, after there were homegrown terrorist attacks in 
Britain and after British citizens had to say, what is going 
on, and after people like him left these radical organizations. 
We don't have that in America at this point.
    Again, if you look at the NYPD report, there are many cases 
of homegrown extremism. We have been lucky that some of those 
terror attempts simply have not been successful. But I think at 
some point, hopefully soon, there will be people coming out and 
denouncing the ideology, but then the question is: Will they 
get money, will they get support? There is no money outside 
government support. The British government started to 
understand this and now supports organizations that are trying 
to help Britain. They have to somehow counter the money coming 
from the Gulf with other money.
    Senator Collins. Thank you. Let me ask the two professors 
what you think of the FBI's outreach efforts, whether you share 
the concerns that we have just heard. I will start with you, 
Dr. Mandaville.
    Mr. Mandaville. Thank you, Senator Collins. I am not 
familiar with the specifics of the CAIR training program for 
the FBI and so the answer to the question, I think, would 
depend very much on what is going on in those sessions. If they 
are primarily aimed at providing basic information about Islam, 
Muslims, the basic beliefs, issues of cultural sensitivity, 
that is one matter.
    I don't share the view that CAIR as an organization is best 
understood primarily as a front for the Muslim Brotherhood, 
whose core agenda is about the realization of that ideological 
project. I do believe that there are individuals associated 
with that movement who hold those views, but I think we would 
be wrong to simply characterize the organization in its 
entirety in relation to that organization.
    Senator Collins. Professor Moghaddam.
    Mr. Moghaddam. I agree with Dr. Mandaville. I would also 
add that we are really looking at short-term issues here. I 
mean, in the longer term, the key to changing the situation, I 
believe, is to change the situation of Muslim women, and the 
way to do that is to make sure they have greater opportunities 
for equal participation in economic, political, cultural life 
outside the home, and when you do that, you transform the 
family, you transform the socialization of the next generation.
    The FBI agents that I know, some of whom have been my 
students, former students, I don't think they would have 
problems cross-examining Muslims in any way.
    Senator Collins. Thank you. Mr. Nawaz, I have very little 
time left, but let me just read an excerpt from a report that I 
found very intriguing. In December 2007, the Dutch intelligence 
agency issued a report warning that the Muslim Brotherhood has 
a strategy of covertly infiltrating social, political, and 
educational institutions, and the report went on to state, 
``rather than confronting the state power with direct violence, 
this strategy seeks to gradually undermine the state by 
infiltrating and eventually taking over civil service, the 
judiciary schools, local administrative units.'' Do you think 
that is an accurate reflection of what the Muslim Brotherhood's 
strategy is today in Western countries?
    Mr. Nawaz. I think definitely it is an accurate description 
of the strategy the Muslim Brotherhood have been employing 
since the 1920s in Muslim-majority countries. In Western 
countries, they are beginning to move along this same track, 
and the reason why they are beginning to shift in the direction 
that you have just outlined is because we are now in the third 
generation of Muslims who are being born and raised in Western 
countries, such as myself, people who call themselves British 
Muslims, people who consider that our expression of faith is 
indigenously British by definition.
    Now, you have at the same time Islamists who are in their 
third generation who express Islamism as a Western expression. 
They consider it something which is indigenous. So what they 
have decided to do, there has been a shift that the original 
tactics of the Brotherhood to gain power, political power in 
Muslim-majority countries, these guys do not belong to any of 
those countries. They don't have nationality or citizenship of 
any of those countries. Their nationality, even their identity, 
is becoming Western. And so they are thinking, well, we are 
here to stay. What do we do if we are here to stay? This has 
become our home.
    So a shift is occurring and we saw this in the U.K., that 
the institutionalization of Islamism is occurring, and what you 
have just described is within many factions of Islamist-
inspired organizations who are not directly Muslim Brotherhood, 
it is the tactic that they are beginning to use.
    I was the other day speaking to somebody who was a 
detective in our police services and happened to be Muslim. I 
know I have to keep this brief. And I was speaking to him about 
the July 7, 2005 bombings that occurred in London. This man, as 
I said, was serving in the police, a detective, and now he is 
serving as an immigration inspector at Heathrow Airport. And 
this man said to me, well, of course, you know it wasn't the 
Muslims that committed July 7, 2005. It was the U.K. government 
and there is a conspiracy and these people are the ones who 
blew the trains up so they could further their aims and 
demonize the Muslim community. I said to him, my God, you 
really believe that? He said, of course. These people are 
against Muslims. And this is a policeman who is now working on 
the immigration patrol at Heathrow Airport.
    His ideas come from somewhere. There is something we have 
in the U.K. called the Muslim Safety Forum, an organization 
that purports to advise the police. This forum has been largely 
influenced by Islamist ideals and these are the sorts of ideas 
that are coming out into law enforcement officers who happen to 
be Muslim. There is a concern we have.
    So to summarize, I would say, yes, I am very concerned that 
the tactic is shifting and moving towards infiltrating with a 
view, because they now consider these countries their homes, 
with a view to at least forming what I call Muslim-centric 
policies, if not to take over--that is still very much focus in 
the Muslim-majority countries--but to form Muslim-centric 
policies that only look after the affairs of the Muslim bloc as 
a bloc, as a fifth column.
    Senator Collins. Thank you.
    Mr. Nawaz. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Voinovich, a vote has just gone off and I want to 
propose this, that you take over and ask your questions. I 
think maybe Senator Collins and I will go over and vote, and if 
we don't get back by the time you finish your questions, please 
recess the hearing and I will begin again as soon as I come 
back.
    Senator Voinovich. OK.
    Chairman Lieberman. Thanks very much. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich [presiding]. Thank you. I want to thank 
both of you for holding this hearing.
    One of the concerns that I have as a Senator, and a citizen 
of the United States, is that we have such little knowledge 
about the Muslim religion and the Koran. I am not here to 
hustle a book, but Dr. Moghaddam, I am promoting your 
colleague's, John Esposito's book called ``What Everyone Needs 
to Know About Islam.'' It is a fundamental book that I think 
lays out what the Muslim religion is about. Do you think this 
is a pretty good book? It answers lots of questions about Islam 
and what the Koran says and so forth.
    Mr. Moghaddam. Yes. It is excellent.
    Senator Voinovich. OK. The other is a gentleman I have met 
with, Imam Faisal Abdul Rauf, and he has an effort going 
throughout the United States now to try and prove that there is 
nothing inconsistent in the Koran with our Declaration of 
Independence and our principles here, that you can be a good 
Muslim and you can be a good United States citizen. They are 
not inconsistent with each other.
    And last of all, the book ``Mecca and Main Street,'' by 
Geneive Abdo, whom I have met with. It is a very interesting 
book because of the fact that she, for 3 years, traveled around 
the United States and interviewed various Muslim people and 
commented on what she found, and what she said, and I would be 
interested in your reaction to this, is that ``the younger 
generation of Muslims in particular is charting a different way 
of life. They are following new imams and placing their Muslim 
identity before their American one. And unlike their parents, 
they do not define themselves by their ethnic background as 
Pakistani, Palestinian, or Yemeni. Instead, they see themselves 
as belonging to a universal faith. Through their new 
organizations and websites, they exchange ideas about how to 
create a more Islamic lifestyle.
    ``Are there strident voices critical of U.S. foreign 
policies? Without doubt. But these voices, at least for now, 
have not made the leap as some European Muslims have toward 
violent radicalism.'' That was kind of the summary of what she 
found while going to various communities.
    And the other point I want to make is this, and it is one 
that you have made, Dr. Moghaddam. It is the issue of women's 
rights. And I don't know if any of you have read ``Infidel.'' I 
am finishing that book, as well as the ``Nine Desires of Muslim 
Women.'' All over the world, Muslim women are being cramped and 
I believe that the more we can open up opportunities for Muslim 
women to get out into society, the more impact we will have on 
moving in the direction that we would like, to see a more open 
secular society than we see today.
    Dr. Mandaville, you said that while there is not yet 
evidence of a systemic or widespread threat of homegrown 
terrorism in the United States, it is worth considering the 
kind of circumstances that might allow such a situation to 
emerge. The real issue is what can we do to create an 
environment in the United States where it doesn't happen. By 
the way, the people that I talk with in CAIR in Ohio, I like 
them. I think they are good. I don't know what has influenced 
them, but I think they are pretty responsible citizens, and at 
least from my observation have been OK. But if these are 
organizations that we are not supposed to talk to or they are 
being influenced, who do we talk to?
    Does anyone want to comment on that? Dr. Mandaville.
    Mr. Mandaville. Thank you very much for the question, 
Senator Voinovich. To the point of what it would take, what 
circumstances would actually bring about a more pervasive or 
systemic problem with radicalization, this is where I think the 
differences between the United States, the Muslim community in 
this country, and Europe are very important. Muslim immigrants 
came to this country for the most part with high levels of 
education, often professional jobs in hand, and indeed, the 
data we have suggests that the average Muslim household income 
in the United States is actually at or slightly above the 
national average for the United States as a whole, compared 
with Europe, where we actually see the average Muslim family in 
the lowest 20 percentile of household income.
    The structures for addressing grievances when Muslims here 
have them, I think are better available than in the United 
Kingdom, which again on the surface of it, as I have said in my 
testimony, suggests that this kind of homegrown radicalization 
is likely to be less of a problem here, although we obviously 
have seen instances of it.
    My concern in part is that one thing that would lead to 
this becoming a more pervasive problem is an increased sense of 
victimization on the part of the American-Muslim community, if 
it increasingly feels as if it is being singled out. This is 
very much a dynamic that has happened in the United Kingdom and 
one can explain it and put the blame----
    Senator Voinovich. And by the way, I think people should 
understand, it is the fastest growing religion in the United 
States today.
    Mr. Mandaville. Absolutely. Yes. In the case of the United 
Kingdom, a number of the Muslim organizations themselves have 
not been particularly helpful in this regard. Mr. Nawaz 
mentioned the Muslim Safety Forum, and I believe that the 
dynamic coming out of that group has been very much as he has 
characterized it. There are certain self-appointed spokesmen 
for the Muslim community in Europe and the United Kingdom that 
have a tendency towards self-victimization. At the same time, 
however, some of the funding and some of the outreach coming 
from law enforcement and government agencies in that country 
has been exclusively devoted to issues of radicalization and 
terrorism. Some, particularly the younger generation within the 
community being primed in this very polarized environment by 
some of the ideas coming out of groups such as Hizb ut-Tahrir, 
increasingly have a sense of themselves as a community being 
defined in relation to terrorism, being told that its sole 
contribution to society is to counter radicalization.
    Now, this is a concern that the community has. However, the 
Muslim community has any number of other concerns, and so my 
fear is of a growing dissonance, a gap between the concerns and 
issues that the community sees and the priorities of those in 
the government and local authorities who are reaching out to 
them.
    Senator Voinovich. I am going to have to recess this 
hearing because I have to go vote, and I am sure that Senator 
Lieberman and Senator Collins will be back. Ms. Baran, you did 
not have an opportunity to respond to my questions. Do you have 
real quick responses?
    Ms. Baran. I just want to be clear. I am sure an 
overwhelming majority of people in CAIR or other organizations 
I have named are good citizens, decent people, wonderful human 
beings. That is not the issue. I am talking about the 
institutions and the leadership. So I am sure the people you 
met are really good, wonderful people. And also being nice does 
not mean they don't have a different ideology. We need to be 
clear about that.
    Senator Voinovich. OK. Well, that ideology hasn't bubbled 
up as far as my relationships with them.
    I will be back. This hearing is recessed until Senator 
Lieberman comes back.
    [Recess.]
    Chairman Lieberman [presiding]. Let us reconvene the 
hearing. Thank you for your patience. I know Senator Collins 
will return. We will go now to another 7-minute round of 
questions.
    Dr. Mandaville, I want to bring you into the discussion 
particularly in regard to what your research tells us about the 
policies of the government of the United Kingdom in 
relationship to various Muslim groups or Islamist groups in the 
U.K. What lessons do we learn from that?
    Mr. Mandaville. There are two points in particular, Senator 
Lieberman, that I would like to make in this regard. First, in 
the aftermath of September 11, 2001, and in the wake of the 
July 7, 2005, bombings in London, the chief interlocutor for 
the U.K. government in terms of outreach to the Muslim 
community was an organization called the Muslim Council of 
Britain (MCB), founded in the late 1990s. This is an umbrella 
organization representing some 500 Muslim organizations, 
national, regional, local in nature, spanning the gamut from 
madrassas operating in the Pakistani model essentially up in 
rural Yorkshire in Northern England, to quite relatively 
cosmopolitan, progressive, professional Muslim organizations in 
the southern cities of England. So there is a wide range of 
views within this entity, meaning that its claims to be able to 
say anything representative on behalf of something called the 
British Muslim community were always dubious.
    And part of the problem here, I think, and this was a 
lesson that the U.K. government learned after some years, was 
the fact that most Muslims in the U.K., and I would argue in 
the United States, as well, do not understand or pursue their 
religiosity or their religious identity primarily through 
groups and organizations.
    Chairman Lieberman. Right.
    Mr. Mandaville. Futhermore, with the case of the Muslim 
Council of Britain, the leadership ranks of this organization 
tended to feature, in my view, a fairly disproportionate number 
of individuals with strong linkages to some of the Islamist 
movements, such as the Muslim Brotherhood and the Jama'at-i 
Islami, and they have managed to maintain something of a 
stranglehold over that organization. This is unfortunate 
because I believe that there are within the second and third 
generation of Muslims in the United Kingdom those who are ready 
to set off on a different course and I think could have a major 
impact.
    Now, what happened is that the Muslim Council of Britain, 
for any number of reasons that I won't go into, found itself in 
a number of controversies and the U.K. government began to see 
that it was not necessarily the most effective point of 
interlocution with the community. So a couple of years later, 
the MCB was, I think it is fair to say, deprioritized as that 
point of contact and any number of organizations were brought 
into the picture, and I think that move was important simply 
because they began to realize that there really was no such 
thing as an organization that represents the Muslim community 
in the U.K.
    Chairman Lieberman. So in reaching to other organizations, 
did the U.K. government attempt to reach out to--you posited a 
problem here----
    Mr. Mandaville. Yes.
    Chairman Lieberman [continuing]. Which is that most 
Muslims, I suppose like most other people of other religions, 
don't belong to organizations. So if minority views or 
extremist views, Islamist views are disproportionately 
represented, let me put it that way----
    Mr. Mandaville. Yes.
    Chairman Lieberman [continuing]. In the organizations, how 
do the authorities, how does the government reach out to try to 
create constructive linkages with the Muslim community? So were 
any of these other organizations--for instance, I wonder if 
there are not uniquely religious organizations that don't have 
a political agenda within the Islamic community.
    Mr. Mandaville. Yes, absolutely. The shift that we saw 2 
years ago went along two different lines, and I think there is 
utility in looking at that, and also, I think, looking at what 
the German government has been doing in recent years with its 
new Islamic Conference. The German government had the benefit 
of the hindsight of the British experience, I think, and when 
the Minister of Interior in Germany set up the Islamic 
Conference, they made sure to include within its membership a 
number of Muslim members at large who are not actually 
affiliated with any organizations per se, but who had a 
following, who were notable voices and figures representing 
particular constituents and local groups.
    What the British government has done is to widen its 
outreach to include groups that will represent either more 
sectarian views or groups such as the Sufi Muslim Council, 
which is not at all political in orientation. Now, part of the 
problem that they have encountered, I think, is the question of 
the extent to which some of the groups they have reached out to 
or some of the groups that have come to them wanting to be 
reached out to actually represent sizeable constituencies 
within the community or have any legitimacy.
    A more profitable line that I think that they went down is 
to abandon the idea of trying to find representative groups 
altogether and focus instead on problems, to get back to this 
idea that Mr. Nawaz mentioned that we are talking about local 
grievances that get turned into global problems.
    Chairman Lieberman. Right.
    Mr. Mandaville. So let us start not by addressing or trying 
to find particular organizations to work with but by 
identifying problems and work this issue via local problems 
rather than particular groups and associations.
    Chairman Lieberman. But problems uniquely within the Muslim 
community?
    Mr. Mandaville. Yes, and in some cases these are problems 
that are unique to a community that is often living a highly 
ghettoized, insular existence in the peri-urban areas of post-
industrial Northern cities in England where levels of 
employment are very low----
    Chairman Lieberman. In other words, the problems may not be 
uniquely Muslim. Obviously, there are non-Muslims who are 
experiencing high unemployment. But the governmental reaction 
may be directed at the problems and perhaps focused on the 
Muslim community.
    Mr. Mandaville. Absolutely right, and what my research 
would suggest is that a profitable line of inquiry, or a 
profitable line of policy in this regard would actually be to 
encourage Muslims and non-Muslims who share those same kinds of 
problems to form coalitions focused not on their religious 
identity, but the fact that they face a similar kind of issue 
regarding access to education, access to social mobility, so 
that the focus becomes the shared issue that we face and not 
the religion.
    Chairman Lieberman. Thanks, Dr. Mandaville.
    Ms. Baran, let me ask you to comment on this idea that Dr. 
Mandaville has just suggested as one path to find the non-
Islamist leadership or membership within the Muslim community. 
I mean, you have said to us today that most Muslim Americans 
are not Islamist, and yet if I am hearing you correctly, you 
are also saying that a lot of the established Muslim 
organizations are, if not dominated, disproportionately 
influenced by Islamist groups. I have a quote from your 
testimony. You have a section, and which will be part of the 
record of the Committee, and it is quite strong and 
provocative, but I think very important to listen to.
    ``The most prominent Muslim organizations in America were 
either created by or associated with the Muslim Brotherhood, 
and the Wahhabis, and they have therefore been heavily 
influenced by Islamist ideology over the course of four 
decades. Islamists have taken over the leadership in almost all 
Islam-related areas in America. This is scary''--these are your 
words--``yet almost no one in the U.S. Government deals with 
it.''
    So I take it that in speaking about--for instance, as 
Senator Collins said, we had testimony here saying that--
including from Muslim organizations and the FBI that they, 
surprisingly, do the best outreach to the Muslim-American 
community. So I take your testimony not to dispute that in 
terms of the volume or quantity of the outreach, but to say 
that in that outreach, they may actually be influenced 
disproportionately by Islamist ideology and Islamist groups.
    Ms. Baran. Yes. Thank you. I think what we just heard from 
Professor Mandaville in the British case is a very good 
example, and there are a lot of parallels in terms of what 
those in the British system end up learning, even though at the 
beginning they did not want to move away from established 
partnerships. Moving away from these partnerships brings 
political cost.
    For me, the question is what is the purpose of outreach? 
You can always have nice conversations with a whole set of 
people. What is the purpose? Is the purpose, as some people in 
the law enforcement have told me, to co-opt them? If that is 
the case, then I think the people who are doing the outreach 
are being co-opted because they are going into an area where 
they are not well educated or informed and they are open to 
learning. They are not critical and they are not criticizing 
because as I said, they think what is told to them is Islam and 
they are not qualified to judge or ask questions about a 
particular religion.
    If the goal of outreach is to talk to the Muslim community, 
fine, but what is the point? The point is that we want these 
citizens to be happy, loyal, and, of course, also for homeland 
security concerns, not radicalized, not engaged in terrorist 
acts. Then the issue is not to reach out to them based on their 
Islamic identity or based on their religiosity, but based on 
the problems.
    Chairman Lieberman. Yes.
    Ms. Baran. What are some of the problems? Unfortunately, 
because Islamism thrives on victimization certain issues are 
exaggerated so that Muslims come together in this ``us versus 
them'' mentality. They are basically saying, we Muslims need to 
be an ummah because Islam is under attack. So you have now all 
kinds of stories circulating about Muslims being mistreated, 
this and that. Some of them are true and those need to be 
addressed; those are basic civil rights, and equal treatment 
issues. And there is also some bigotry and there are some 
activities against Muslims and those need to be dealt as law 
enforcement issues.
    Chairman Lieberman. Right.
    Ms. Baran. And in general, we are lucky that in America, of 
course, Muslims do not have the same kind of problems that we 
often find in Europe. So the purpose of outreach, the 
counterpart you choose, what you want to get out of those 
interactions needs to be much more clearly defined. I think 
after September 11, 2001, there was this urge that we have to 
talk to Muslims and we have to make sure that they don't hate 
us. But I think now that with enough time, we understand that 
alone does not really answer the questions and doesn't resolve 
anything. I think if we look at the rate of radicalization 
among American youth and look at all the activities of 
outreach, we don't see necessarily an impact.
    So there is one set of outreach that needs to be done to 
understand the community issues and resolve them, but there are 
also issues that deal with the ideology and what is being 
supplied. I mean, ultimately, if you think about supply and the 
result, then we have to address both elements.
    Chairman Lieberman. Thank you very much. I would like to 
come back to that briefly in a moment. My time is up, though. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Just one final question for Mr. Nawaz. Both the Chairman 
and I are very interested in better understanding the 
radicalization process and you described witnessing terrible 
acts of prejudice and violence and unfair law enforcement 
actions when you were a teenager. What would have been an 
effective counter message for you to have heard as a teenager?
    Mr. Nawaz. On that point, I think that an effective counter 
message would have been for localized grievances to have an 
outlet to be channeled through localized, or local-based 
solutions and channels, especially when it came to the crisis 
of faith that I talked about. There needed to be a strong, 
firmly grounded, traditional theological leader there to be 
able to deal with some of these questions, who is articulate in 
English, fluent and able to communicate with the second and 
third generations. That was, and to a large extent still is, 
missing in the U.K. We do not have the imams that are trained 
and raised from within the U.K. They are still going abroad to 
take their training. In fact, a recent suggestion was made by 
our government and was very conveniently and correctly 
forgotten very quickly, and that was the suggestion that we 
should take imams and send them to Pakistan for training.
    I don't think the solution is that. I think the solution is 
that there needs to be an indigenous British Islam, or more 
generally Western Islam, that arises. There are some very 
encouraging movements in that direction. One of our advisors 
for the Quilliam Foundation is a wonderful man by the name of 
Usama Hasan who in his youth went to Afghanistan to train with 
the so-called jihad there, but has abandoned all of that and 
now takes very courageous theological stances.
    To give you one example of his stance--this man is 
qualified theologically. He is an imam of a mosque and is also 
a university lecturer, and he says that Muslim women do not 
have to cover their heads from a theological perspective. One 
of our advisors. We need to have more people like this.
    I think in the U.K., I am very encouraged by signs of the 
discussions coming from people like Imam Hasan, Usama Hasan, 
that I see, very non-Islamist messages. Though they are pious 
or religious in their personal practice, they are very clear 
not to encourage, and in fact, they critique the Islamist 
message. So there needs to be an indigenous growth from within 
the West of Western Islam, and that is something that the 
Quilliam Foundation has put as one of its objectives to 
encourage.
    If that had been there for me in my crisis of faith, I 
don't think I would have turned to a political ideological 
alternative. I was not able to relate to the village religion 
of the mosque imams who did not speak my language.
    In terms of the crisis of identity, and this is something 
where if you caught my facial expressions, I was very keen to 
interject. All I did is I settled for writing ``excellent'' on 
Dr. Mandaville's book here. And that is that the whole 
discussion--I agree entirely with what he said, and there is 
something I would like to add and that is the psychological 
state of somebody approaching this discussion in the first 
place, is that when we talk about the Muslim community, that is 
a paradigm which we have adopted from Islamists and the British 
government has recently shifted in this and now they are 
talking about Muslim communities, and that is more accurate, 
because in the U.K., we have very recent immigrants who aren't 
settled as the immigrants who originally came from the Indian 
subcontinent are, but rather we have had Somalis that have 
immigrated to the U.K. due to the war and the conflict that is 
there. There are others, North Africans that have immigrated 
due to the conflicts in Algeria, and others have immigrated 
from many different regions.
    The expression of Islam from each one of these communities 
is very different. And in some cases, they are at conflict with 
each other. The default form of religious expression for the 
majority of Muslims in the U.K. is the Sufi Barelvi tradition 
coming from the Indian subcontinent, which is historically 
apolitical and, in fact, is anti-political.
    Now, if we can grasp that there is more than one Muslim 
community but rather there are Muslim communities, we will not 
adopt the paradigm of the Islamists in dealing with this 
problem as a Muslim problem but rather looking at it as 
localized problems and trying to deal with the problems 
themselves rather than adopt the paradigm that it is one 
community that requires one solution and one representative.
    The U.K. government made a mistake with the MCB. I pray 
that your government here does not make that same mistake. And 
now they have learned from that. The British Government has set 
up a department called the Department for Communities and Local 
Government (DCLG), that has a 3-year budget of 70 million 
Sterling, which again is a lot of dollars. Now, that 70 million 
Sterling is allocated specifically for dealing with this 
problem. I recently met with the minister responsible for that 
department, Hazel Blears, and I am very encouraged by her 
understanding on these issues.
    Now, that department is there solely to take this money and 
to distribute it on a localized basis through local councils, 
not through a centralized national body, and I think that is 
the encouraging way forward. If these measures were there in 
the early 1990s, we would not have had the situation that we 
had through the mid- to late 1990s of Islamists pretty much 
becoming institutionalized.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    Unfortunately, we are going to have to move on in a moment. 
I did want to say, Mr. Nawaz, I am so glad you came here, but I 
really object to your rubbing in the dropping value of the 
dollar so often. [Laughter.]
    All in good spirit.
    Let me just see if I can ask this question because a part 
of what motivates this hearing is that the insight, which I 
quoted from the 9/11 Commission Report, that this so-called war 
with terrorism is really an ideological war at its essence, so 
that while we are fighting it in a military sense, we also have 
to try to figure out how to counteract the ideology.
    This is not easy because it requires non-Muslim governments 
in countries like the United States and the U.K. to find an 
effective, thoughtful, and honest way to reach into the Muslim 
community, and I think this is part of what the outreach is 
supposed to be about, but it may not be working. You are 
absolutely right in the experience that you both reflected from 
the U.K. Your testimony, Ms. Baran, should really be a warning 
to the U.S. Government about what they are doing and whether it 
is really achieving the goals.
    But some of the goals are pure law enforcement, there is no 
question about it, trying to develop links to the community, to 
the mainstream, law-abiding Muslim-American community so that 
if they hear of the growth of violent Islamist activities, that 
they will let law enforcement know. Some of it, I think, is 
also aimed--and this is not easy--at encouraging leadership to 
emerge from the majority, mainstream Muslim-American community. 
In other words, the picture that I am getting today is that 
there is a silent majority within the Muslim-American community 
and it is an American community. It is a mainstream community.
    In addition, I think you have given us a good idea here, 
which is that we have to be not just reaching out to 
organizations, maybe we have to do that with open eyes, but 
also really to the problems within the community. How do we 
create a situation where when someone like Mr. Nawaz as a 
teenager develops these grievances--and look, teenagers of any 
religion and race will find various reasons to develop 
grievances. Yours happen to have been quite palpable and real 
and severe. What can we do to create an alternative vehicle for 
expression other than Islamism? Ms. Baran.
    Ms. Baran. Well, if I can talk about my teenage rebellious 
years.
    Chairman Lieberman. You are not under oath now, so---- 
[Laughter.]
    Ms. Baran. I was also looking for different identities. 
Now, I wasn't born in America; I was a teenager in a Muslim 
country and there were many different options. There were the 
Islamist options. There were different options. I think having 
the variety of options is very important and also having good 
role models and trusted sources. Again, I say that if I had 
learned my religion from the wrong people, I could have become 
an Islamist because the ideas are extremely attractive, partly 
because everything becomes so simple and understandable. In a 
way it empowers you because all of a sudden, from not being 
able to change your life or bringing meaning to it, you have a 
meaning and everything easily makes sense.
    So there is not a single answer, and like in the British 
case, in America, too, I think there are multiple communities. 
Some of them are more religious, some of them are less 
religious. You can't even say the Arab-American community. 
Within the Arab community, there are so many different ones.
    In, again, my case, in this neighborhood, the Turkish-
American community goes to the Turkish mosque, and so we don't 
even go to the same mosques because there are different 
cultures and, of course, when it comes to second generation, 
third generation, the issues are also different.
    There are many ways that this issue can be addressed, but I 
think the starting point has to be that we need to define what 
we want in reaching out to the communities because ultimately 
they are citizens and there are certain citizen rights and 
there are certain needs for their faith, for their education. I 
am worried about raising my children in this country because I 
would not know where to send them to teach them Islam. I would 
have to do that at home at this point. But I would like to be 
able to send them to a mosque and be comfortable that what they 
are going to learn there is going to be about the faith and is 
going to anchor them in a way that they are going to be Muslim 
and American and will not find a conflict in the two.
    Chairman Lieberman. That is a perfect and strong place to 
end the testimony of this panel. I thank you all very much.
    Mr. Nawaz, I want to thank you really for the foundation. 
It seems to me that is part of the answer, so I wish you well 
in what you are doing. I hope that the four of you will remain 
available to the Committee as we continue to consider these 
really important but difficult questions and try to play a 
constructive role. Thank you very much.
    Senator Collins. Thank you.
    Mr. Nawaz. Thank you.
    Mr. Mandaville. Thank you.
    Ms. Baran. Thank you.
    Mr. Moghaddam. Thank you.
    Chairman Lieberman. We will now call Michael Leiter to the 
stand. Michael Leiter is the Director of the National 
Counterterrorism Center, served as Deputy General Counsel and 
Assistant Director of the Robb-Silberman Commission and then as 
Deputy Chief of Staff at the Office of the Director of National 
Intelligence, also an Assistant U.S. Attorney for the Eastern 
District of Virginia. Mr. Leiter is responsible for 
administering the National Implementation Plan, the Federal 
Government's efforts to coordinate the response to terrorism. 
One component of that is to Counter Violent Islamist Extremism 
(CVIE).
    We welcome you, Mr. Leiter. Thank you for being here and we 
look forward to your testimony now.

     TESTIMONY OF MICHAEL E. LEITER,\1\ DIRECTOR, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Leiter. Thank you, Mr. Chairman and Senator Collins, 
and Senator Voinovich. It is a pleasure to be here. I am happy 
to talk about the intelligence community's efforts to 
understand this very difficult problem, and most importantly, 
in many ways, the broader U.S. Government efforts to counter 
it, as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Leiter appears in the Appendix on 
page 95.
---------------------------------------------------------------------------
    I am going to focus today on the role of ideology, as you 
asked, and I am also going to talk about the National 
Counterterrorism Center's (NCTC's) effort in that part, and I 
ask that my more detailed statement be made part of the record.
    Chairman Lieberman. Without objection, so ordered.
    Mr. Leiter. Thank you. Now, before focusing on the very 
specific topic today, I do want to make one clear point and 
that is that although clearly the greatest terrorist threat we 
see in the United States today is from al-Qaeda and associated 
ideologies, this violent extremism is not historically, nor is 
it today, associated only with Islam. A generation ago, the 
violent extremist threat came primarily from the far left and 
the Red Brigades, and even today we continue to see a terrorist 
threat from organizations like the Revolutionary Armed Forces 
of Columbia that are clearly terrorists and violent extremists 
in their own right. Thus, although I think the focus today is 
quite appropriate in light of the seriousness of the threat, it 
is not the only terrorist ideology that we face.
    Now, as you have already heard this morning, the extremist 
ideological leanings that set the precedent for many of today's 
groups were articulated first by Sayyid Qutb, a member of the 
Egyptian Muslim Brotherhood in the 1950s and 1960s. Now, in the 
most basic sense, he argued that the notion of Islam's primary 
enemies are Western cultural liberalism and its Middle Eastern 
ally, Zionism. Al-Qaeda continues in their propaganda to echo 
those same views today.
    The core narratives repeated in al-Qaeda's message to the 
West and repeated in the United States at times is that the 
West and its allies are seeking to destroy the Muslim world and 
Islam and that Muslims must counter this through violence and 
that just rule under Islamic law is the reward for expelling 
Western influences.
    At the National Counterterrorism Center, we assess the 
evolution to violent extremism consists--and this is in very 
general terms, it does not obviously speak to every precise 
individual--but in general terms, it breaks down to a four-step 
radicalization process. Now, first, and you heard this again 
from some of the panelists on the first panel, an individual 
develops a sense of crisis and it is often brought about, or at 
least accelerated by, specific precipitants, depending on their 
environment. Second, the affected individual seeks answers to 
those perceived or real crises through ideological or a 
religious framework. Third, the individual develops contact 
with a violent group and that violent group establishes a 
sacred authority for the individual. And fourth and clearly 
most troublesome, the individual internalizes that group's 
values and its support for violence.
    Now, of note, ideology is not necessarily central to the 
start of this process. Other factors before ideology might be 
key. And rather, it gains its greatest importance in later 
stages and it takes on a crucial role of preserving the radical 
commitment to violent extremist activity.
    Now, beginning with the first stage of the process, there 
is no single underlying catalyst for this initial period of 
radicalization. Although most individuals clearly reject 
extremism outright, personal frustration and perceived social 
injustices and other grievances can prompt individuals to 
reassess their general world view and be open to more 
alternative perspectives, some of which can, in fact, espouse 
violence. Now, the most common catalyst, but again not the only 
ones, in Muslim-majority countries tend to include blocked 
social mobility, political repression, and relative socio-
economic deprivation.
    Now, the second stage begins when individuals seek answers 
to their sense of frustration through a politicized version--
and I want to stress here a politicized version--of Islam, or 
in fact, it could be any other religion, and thus they become 
what we term religious and ideological seekers. And here again, 
I want to stress that in no way do I mean to suggest that 
seeking answers to one's problems in life through religion is 
in and of itself the least bit worrisome, problematic, or 
negative. Rather, the key component here is not the contact 
with religion, it is the contact with a violent extremist group 
or message and is an ideology which clothes itself in some ways 
in religious viewpoints.
    Now, the third stage of the process distinguishes between 
those individuals who have contact initially with that violent-
prone group and those who are drawn fully into violent 
extremist activity, and specifically it is at this stage that 
an individual's willingness to accept the sacred authority of 
the violent extremist, that is the extremist right to interpret 
Islam or provide an ideological framework for violence that 
marks the passage to a latter stage of radicalization and 
ultimately a support for violence.
    Now, simply reaching step three in this process doesn't in 
all explain why some individuals absorb this and adopt it for 
their own perspective, and some do not, and there are numerous 
factors that we assess, that will play into whether or not an 
individual will ultimately accept that violent extremist 
ideology. Some of those include, first, I would say, a previous 
knowledge of Islam. Many academic studies, and our views as 
well, have found, especially in the U.K., that many of the 
radicals, in fact, have a far lower level of religious 
knowledge than those who do not accept an extremist violent 
perspective.
    Second, who are they learning from and what is their 
authority? What are their attributes? Sociological and 
psychological studies indicate that individuals and communities 
that emphasize rote memorization and an unwillingness to 
challenge authority are more likely, just more likely, to lend 
themselves to radical indoctrination than others.
    Third, we have seen this and it is very vividly illustrated 
in the case studies of Osama bin Laden and Ayman al-Zawahiri, 
those with a technical education, that black-and-white ideology 
of violent extremism, often appeals to individuals with that 
background.
    Fourth, and this is almost self-evident, but whether or not 
there are countervailing influences. A lack of exposure to a 
variety of Islamic perspectives and non-Islamic perspectives 
makes it more likely that individuals will fully internalize 
the violent extremist message.
    Fifth, and again, this is, I think, obvious to anyone who 
has a teenager, peer pressure. Group dynamics are key, 
particularly in extremist study circles. Most likely, those 
will affect the prospects for successful indoctrination. Family 
members and friends with connections to extremist movements are 
critical in determining whether or not an individual will adopt 
this ideology.
    And finally, a lack of exposure to extremist atrocities. In 
this case, studies such as a Pew poll published in July 2007 
found that the confidence in Osama bin Laden among Jordanians 
dropped significantly, by 36 percent, between 2003 and 2007, 
reflecting at least in part the Jordanian population's 
widespread revulsion to al-Qaeda's attacks against hotels in 
Oman in 2005.
    Now, Mr. Chairman, Members of the Committee, this gives you 
a very small sense of how we look at it in this basic four-step 
process, and obviously there is much greater detail and we look 
at it differently in different places in the world. I just want 
to note that from my perspective, there is simply no more 
important issue that NCTC, and in that sense the U.S. 
Government, faces in the war on terror. In this regard, we have 
significantly increased both our analytic resources with a 
variety of expertise and also our planning resources to make 
sure the U.S. Government is pursuing this effectively, and we 
hope in the coming year, contingent on Congressional approval, 
to dedicate even more resources to this issue.
    Now, I also want to note, and Chairman Lieberman, you noted 
this in part in your closing comments, that this is very 
different from classic intelligence challenges. A very small 
section of how we will understand this comes from the world of 
clandestine intelligence reporting that I deal with most of my 
day. To understand and combat radicalization requires new 
sources of information, and equally important, new partners, 
and it is new partners within the U.S. Government, with State 
and local authorities, and I want to stress with non-government 
officials and leaders in the Muslim community in America and 
abroad.
    It also requires us to approach this from multiple angles, 
which we currently do, because we now approach this not only 
from a religious perspective, which is certainly critical, but 
from a sociological perspective, from a regional perspective, 
and from a psychiatric perspective. All four of those are 
pieces to this puzzle of understanding why an individual 
chooses to adopt this ideology.
    Now, as we improve our analytic understanding of Islamist 
militancy, we can better shape our policy response to the 
threat, and through our responsibilities as the strategic 
operational planner for U.S. Government-wide efforts, what we 
did was we created what we have termed a Global Engagement 
Group, and this group's sole function is to coordinate, 
integrate, and synchronize all elements of U.S. power to engage 
and combat this ideology.
    Now, I want to give you a few specific examples of what 
this group is doing, and I can do that--I will do that to the 
best extent I can here in an open session. First, the group 
coordinates potentially divergent department and agency 
responses to specific situations that might be used by violent 
ideological extremists in their own propaganda.
    Second, we are also establishing the capability to provide 
situational awareness to U.S. policy makers and officials about 
all of the things that the U.S. Government is doing, across 
departments and agencies, across the world, to combat this, 
because without that situational awareness, we cannot actually 
shape what the U.S. Government is doing.
    If I may, Mr. Chairman, I just have another 30 seconds or 
so.
    Chairman Lieberman. Go right ahead.
    Mr. Leiter. Third, the group is coordinating the long-term 
effort to combat this, and what we are doing is identifying 
very specifically through means such as sociological studies, 
psychiatric studies, religious studies, and the like, 
identifying who the next generation of recruits most likely is, 
and that is both domestically and abroad. And then we are 
shaping over 5 years and beyond, attempting to shape department 
and agency programs and budgets to address those in the long 
term.
    Fourth, we work extremely closely with our department and 
agency partners. I want to just mention two, but the Department 
of Homeland Security, the Civil Liberties Protection Officer 
Dan Sutherland has been a fabulous partner in this, and 
overseas, the newly confirmed Under Secretary for Public 
Diplomacy Jim Glassman, two key partners, and also, as we have 
talked about before, the FBI.
    And finally, and this is, I think, especially important, we 
work very closely with the Office of Management and Budget to 
identify where these programs are today, how they are 
coordinated, and whether or not they are actually synchronized 
and complementing one another for the long term.
    Now, I do believe that working with partners at home and 
abroad that we can develop targeted and refined approaches to 
undermining the attractiveness of violence to certain 
susceptible audiences. But I don't want to leave any doubt in 
this Committee's mind that this is an effort that is going to 
take many years and many new partnerships, and I also want to 
note that tangible results in this area are going to be both 
elusive and at many times very difficult to measure with any 
sort of reliable metrics. But none of those make the effort any 
less important.
    Now, we are going to require cross-government efforts, as I 
have already noted. This Committee is a key part of that. And 
it is not only going to be about words, it is going to be about 
a diplomacy of deeds, both domestically and overseas. And I 
very much look forward to working with this Committee and the 
larger Congress, because so many committees have a hand in 
this, and getting your guidance on how you believe we should 
approach this challenge.
    Chairman Lieberman. Thanks very much, Mr. Leiter. That was 
very good testimony. I must say, some of the programs you 
describe, you have gone beyond at least what I contemplated the 
NCTC would be doing, which we saw in its creation as the 
central place to make sure that all the dots were connected of 
intelligence in a way that was not done before September 11, 
2001. But what you are doing also seems to me to be directly 
related to counterterrorism, which is what your defining 
mission is, so I appreciate it and I am interested in asking 
some questions about it.
    Let me first talk about the language we use here, because 
it is significant and has some substance to it. You said at the 
outset that what we have been calling this morning Islamism is 
not the only terrorist ideology we've faced, and, of course, I 
agree with that, nor is it historically the only terrorist 
ideology we have faced. But it does seem to me that it is the 
most significant terrorist ideology we face now. In fact, it 
motivated the attacks of September 11, 2001, which are the very 
reason that we created the NCTC in the 9/11 Commission 
legislation. So do you agree with that, that we are dealing 
more with Islamist, what we have called this morning Islamist, 
ideology-inspired terrorism than any other kind?
    Mr. Leiter. Undoubtedly and without question, the greatest 
threat we face today and in the world of terrorism is from 
Sunni extremist ideology. I will say one thing, if I may, Mr. 
Chairman.
    Chairman Lieberman. Sure.
    Mr. Leiter. I think part of the challenge here is about 
words, and I think just from the four panelists you just heard 
from, there are not insignificant differences in how 
individuals and professionals would define Islamism. So I think 
that is a challenge. But undoubtedly, Sunni extremism is the 
greatest terrorist threat we face today.
    Chairman Lieberman. As you know, in March, there was a 
State Department document released that said, ``Words that Work 
and Words that Don't: A Guide for Counterterrorism 
Communication,'' and the document recommended that government 
officials not make references to Islam when talking about 
terrorism. And, of course, our whole focus today has been to 
try to distinguish between the religion Islam and this radical 
political ideology which we have called Islamism.
    I think that there was some misunderstanding, I hope, of 
what that report intended to say, but I just wanted to ask you 
whether you agree that--because I think if we don't--just 
listening to the four witnesses on the first panel, three of 
whom are Muslims themselves, that we are not going to be able 
to deal with the problem unless we describe it as what it is, 
which is originating from a radical political version of Islam 
which we have called today Islamism. So how do you understand 
that State Department guidance?
    Mr. Leiter. Senator, that State Department guidance, I 
think was a policy choice by the Department as to how they 
believed individuals should speak about it. I would say that I 
don't agree with everything that was in that document. I do 
think that you cannot separate out the fact that the terror 
fight we are fighting today involves Islam as a religion. But 
the ideology which motivates these terrorists has very little 
to do in reality with the religion of Islam. It is the 
difference between a religion and a violent ideology that has 
motivated these individuals. But we can't simply ignore the 
fact that there is a link to the religion.
    Chairman Lieberman. I thank you for that and I appreciate 
it personally. Let me go on to something you talked about, 
really interesting, which is a quote again from your testimony. 
``Much of NCTC's growth over the past 2 years and much of our 
planned growth in the coming year is dedicated to government-
wide coordination and analysis to counter radicalization,'' 
exactly what we are talking about today. I think it is very 
important. You talked about it some in your opening statement, 
but I want to ask you to expand on it, if you would, for the 
Committee.
    What kind of people are you hiring? What will improvements 
of government-wide coordination look like, and a little bit 
more about what other agencies you are working with and how you 
are working with them. We know, for instance, that the State 
Department cannot be involved in domestic counter-
radicalization, but still they have international experience 
that is relevant. So talk to us a little bit more about your 
counter-radicalization efforts, because it seems to me that 
they are really at the heart of what the U.S. Government should 
be doing now.
    Mr. Leiter. I am happy to, Mr. Chairman. First, on our 
analytic front, the intelligence side, we are significantly 
increasing our analytic resources, and the people that we are 
hiring come from a variety of backgrounds. I have an individual 
with me today who has a Ph.D. in political science who has 
looked at these issues and lived in the region throughout the 
Arab world for many years. That is one example. I also actually 
have an M.D. psychiatrist trained at Harvard who has spent 
significant amounts of time speaking with individuals who have 
become radicalized from a psychiatric perspective, and so on 
down the line. So the stress in hiring has been to get a wide 
variety of views, people who have an understanding of domestic 
issues and foreign issues because as you well know, our mandate 
is transnational, United States and abroad.
    Now, on the coordination side, we have also attempted to 
bring in people from--the lead from our team of the Global 
Engagement Group is a State Department Foreign Service officer 
who has spent a significant number of years in Arab countries 
and Africa. But working alongside him are individuals from the 
FBI and Department of Homeland Security, so we can take those 
lessons from places like Africa or the United Kingdom and see 
the degree to which they do or do not apply to the United 
States, and they are very different situations and much of our 
work is trying to understand where the threat has been, how it 
does or does not apply to the United States.
    In terms of concrete efforts, as I said, one of our biggest 
efforts is to actually understand what everyone in the U.S. 
Government is doing on counter-radicalization on any given day. 
Understanding what the Department of Defense, Department of 
State, Department of Homeland Security, FBI, and on down the 
list are doing globally is important because anything is said 
anywhere in the world today can also be circulated in the world 
anywhere today on the Internet. So I like to think of it as we 
have to think about this globally, to borrow a phrase from 
another era, think about this globally but act locally. We have 
to think about the global challenge of violent extremism, but 
then we have to apply it to individual local circumstances. And 
by gaining that situational awareness and working with State, 
FBI, DHS, and others, we can then shape those messages in a way 
that is consistent and appropriate for the target community.
    Chairman Lieberman. Because you have no doubt that we do 
have to confront the threat of homegrown terrorism here in the 
United States.
    Mr. Leiter. Senator, I would agree with some of the--from 
the prior panel of comments. We certainly have not seen the 
same threat of radicalization here in the United States that we 
have overseas, in particular the United Kingdom and other 
nations. That being said, we have seen some instances, and I 
will certainly not rest on our current good situation to assume 
that will continue into the future.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to follow up on your comments that you provide 
situational awareness and intelligence analysis that helps 
other government agencies forge a counterterrorism message. 
This morning, we heard from one of our witnesses, and I believe 
you were monitoring the hearing, as well----
    Mr. Leiter. I prefer not to use the ``monitoring'' phrase. 
[Laughter.]
    Senator Collins. Good point. FISA has been passed now. 
[Laughter.]
    But I know that you were following the hearing and one of 
our witnesses was quite critical of the FBI's outreach efforts. 
The FBI has been on the front lines of trying to develop a 
liaison to the Muslim communities in this country and it was 
interesting to hear from this one expert's opinion that we are 
reaching out using the wrong groups or the wrong organizations. 
What was your reaction to that testimony, since you, after all, 
are the agency that is doing the analysis to provide the 
situational awareness that groups like the FBI use in their 
outreach?
    Mr. Leiter. Senator, I think that outreach by both the 
Federal Bureau of Investigation and Department of Homeland 
Security to both groups within the United States and individual 
leaders within the Muslim-American community is critical. I 
think that understanding that there are certain groups that 
might have individuals with whom the U.S. Government might not 
want to associate does not and cannot stop us from doing the 
outreach that this government needs to do both to understand 
the communities more effectively, but also, frankly, to provide 
these communities with a sense that they do have a voice in how 
their government operates, that they do not feel 
disenfranchised because it is just that disenfranchisement that 
we heard from some of the other panelists that has contributed 
and acted as one of the precipitants to give people a sense of 
crisis and a lack of connection to their government, and 
outreach is one way to ensure that does not occur.
    Senator Collins. So what criteria should the Federal 
Government use in determining who or which groups are useful 
allies in developing a counterterrorism message? If you 
listened to our previous panel, there are some who believe that 
if a group holds an Islamist ideology, then even if it has 
renounced violence as a means to achieving the goals of that 
ideology, that we should not interact with that group. Others 
are saying that as long as the group is non-violent, it does 
not matter what its basic ideology is.
    Mr. Leiter. Senator, I want to be a bit careful because 
ultimately this obviously is a decision for Director Mueller, 
the Attorney General, and Secretary Chertoff about exactly what 
that line should be. I will say one clear line is if a group 
espouses violence, it is quite clear that the U.S. Government 
should not be talking to them.
    Senator Collins. But that is the----
    Mr. Leiter. That is the extreme.
    Senator Collins. Right.
    Mr. Leiter. Exactly. Beyond that, I think that the U.S. 
Government, as a general matter, has to become more comfortable 
speaking with more groups who may be opposed to many policies 
that the U.S. Government has, and it may be slightly 
uncomfortable, but we have to think of this as a full-spectrum 
engagement, and what I mean by that is we have to be willing to 
engage with most people on most of the spectrum regardless of 
how they view U.S. policy. You are going to have to talk to 
some people that make you uncomfortable.
    I analogize back to my days as a Federal prosecutor. I 
would have gotten very few prosecutions successfully--I could 
have brought a lot. I would have had very few successful 
prosecutions in the world of drugs or organized crime if I 
never dealt and spoke to individuals who at one point in their 
life had or had not been associated with drugs or organized 
crime.
    Senator Collins. You talked about the four steps of 
radicalization. The third step that you outlined was the 
development of contact with radical groups. It used to be that 
contact involved a face-to-face meeting or perhaps going to 
Afghanistan or Pakistan for training. But today, it is far more 
insidious and far easier to accomplish because one has only to 
go to the Internet to make contact with a radical group. How 
much of our effort is directed toward providing a counter 
message through the Internet?
    Mr. Leiter. Senator, before answering that question, I just 
want to note how well the NYPD has done in some of their work, 
so well that we actually brought an inspector from the NYPD who 
is now a full-time analyst at NCTC deployed from the New York 
Police Department. So this is another example of a new sort of 
partnership that in 2000 we never would have imagined having.
    Senator Collins. I am very glad to hear that, because we 
have pushed to have more involvement with State and local law 
enforcement.
    Mr. Leiter. Absolutely.
    Senator Collins. I am very happy to hear that.
    Mr. Leiter. In terms of the Internet, the Internet 
certainly is key and I would say that it tends to be key at the 
earlier stages when the individuals--they are experiencing the 
precipitants. They have that sense of crisis and they start 
looking around and the Internet gives them those initial ideas.
    Now, we have seen some cases, more overseas than in the 
United States, where there was kind of a complete 
transformation in the process of radicalization that occurred 
almost solely from the Internet. But that still tends to be the 
exception rather than the rule. Again, it can be key for that 
initial guide towards this world, but more often than not, we 
still see the contact with a charismatic leader who adopts it, 
that face-to-face contact being very important. And I would 
actually venture that is most people's experience with the 
Internet, regardless of violent extremism, that once you have 
that face-to-face contact with a product or people, it becomes 
slightly greater pull than just from the Internet.
    Now, we spend an enormous amount of time both looking at 
the Internet and then working with various parts of the U.S. 
Government on countering messages through the Internet. I will 
say you rather rapidly enter in a very difficult area both in 
terms of legal policy and the First Amendment. I am certainly 
no expert anymore on these issues. But you run into many 
difficult challenges there, most particularly because anything 
you put on the Internet is by definition a global message.
    So what the U.S. Government does and says overseas is often 
quite different from what it says here in the United States. 
The Internet doesn't give you the option necessarily to limit 
your message in the same way. So this is a new challenge with 
policies and legal challenges that we really do have to address 
more over the coming years.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Voinovich.
    Senator Voinovich. Thanks very much for being here today. 
From a management point of view, I am quite pleased with what I 
have heard in terms of your efforts to coordinate the various 
agencies and the fact that you have a connection with OMB 
because I have found that there are many areas where we need 
coordination to get the job done and my feeling is that you 
have to have somebody at OMB that you can talk with and talk 
about the various agencies and how important their budgets are 
in regard to various aspects of the work that you are doing. We 
don't have it all in one place.
    Mr. Leiter. Right.
    Senator Voinovich. Second, I was thinking about low-hanging 
fruit in terms of things that you can do to influence people, 
and one of the things that you mentioned at the end was the 
violence and the impact that it has. I was there in Jordan and 
absolutely, they know who these people are right now. And I 
think that my two colleagues are aware of the fact that the 
Sunnis in Iraq found out who these people were and now have 
turned against them because they don't like them at all. I 
wonder, could we be doing more in that area to get across how 
violent these people are and who are the real victims of their 
activity?
    And then the other one, is the issue of women's rights here 
in the United States and even over in various other countries. 
There is a woman named Madsen, who is a leader trying to 
elevate the rights of women within the Muslim community in the 
United States. I wonder whether or not that is something that 
we should be more focused on or maybe that is something that we 
should stay out of.
    I guess the last thing would be the issue that Senator 
Collins brought up, and that is, who do we deal with? One of 
the things that we have done in my State, we have had a very 
aggressive effort to reach out to the Muslim community. In 
Cleveland, for example, we have the Ishmael and Isaac 
Organization.
    But we need some help. Who are the groups that we ought to 
be talking to in our respective States and you have identified 
as people that we should be talking to, because I think it is 
important that we talk to them, too, so that they know that 
they are a political constituency out there and that we are 
interested in what they have to say and make sure that we are 
talking to folks that we ought to be talking to.
    Mr. Leiter. Senator, thank you for all three. I will try to 
take them in order. First of all, I agree with you. I think one 
of the most critical underlying messages that we have to get 
out is that this is not--the war on terror is not us versus 
them, West versus Islam, and there is no point that illustrates 
that more effectively than that more than 50 percent of the 
individuals who are the victims of al-Qaeda's terrorist 
violence are Muslims. Whether you look at Oman or Iraq or 
Afghanistan, the individuals being killed tend not to be 
Westerners. In fact, they are Muslims. Al-Qaeda is killing 
Muslims and we do have to get that out more effectively.
    We work with the State Department on an annual report of 
terrorist incidents. We post that on our own website and the 
State Department website and we have to get that out more 
effectively, and I would say that we have to get it out more 
effectively through non-traditional means because it isn't just 
about doing press conferences in embassies. It is about getting 
it on YouTube and the like so we are hitting the target 
population that we are actually most concerned with.
    Now, as to your second question, I am going to admit that 
as we were monitoring the hearing in the anteroom, and I 
listened to your questions about women, I spoke to some of my 
analysts about that, and frankly, I think we have not focused 
the same attention on it that we probably should, so we already 
have it as a do out to go back and think more clearly about how 
the issue of women's rights does apply to this. We look at the 
issue of women in the Islamic world in some other contexts, and 
I think that the idea of empowering individuals to participate 
in their political system and political life, in this instance 
women, is again one of those powerful elements which starts to 
reduce the possible precipitants for people to go down this 
path in the first instance. Creating that opportunity to 
express themselves in the political system, whether or not they 
are women or men, is a key element and it is one that I would 
like to come back to you in the future and speak to you more 
about it.
    Now, on your last point about with whom should you deal, 
and I would agree with you, far be it from me to set your 
agenda and your schedule, but I think it is critically 
important for elected representatives at all levels of 
government, from the U.S. Senate down to the city councilman--I 
should say council person--to go out and engage with their 
communities and understand the issues and make sure that their 
concerns are being reflected in the public discourse.
    Now, I would be happy both to offer you experts from the 
National Counterterrorism Center and I am also more than happy 
to help serve as a conduit with you with the Department of 
Homeland Security and the FBI and other agencies to figure out 
groups and leaders who you might want to engage with, people 
who you might want to consider whether or not you should engage 
with them, and what concerns other people in the U.S. 
Government should have, recognizing that you engaging with 
people, you might have a very different set of standards than, 
say, the Department of Homeland Security, and that is entirely 
appropriate. But I am happy to both offer our expertise and 
also help you work with DHS, Secretary Chertoff, and Director 
Mueller in determining who you and other Members of Congress 
might wish to engage with.
    Senator Voinovich. Thank you. Under Secretary of State 
Glassman now is our public diplomacy lead. Our earlier witness 
indicated that there is a dilemma today, and that is that we 
talk about democracy and freedom, and the President articulated 
that in his second inaugural address, but it appears that we 
have backed off substantially from that. Is that having any 
influence at all on folks here in this country?
    Mr. Leiter. Senator, I have to apologize. This may have 
been one of the moments that I was not monitoring. But I will 
say that the idea of democracy is certainly a key 
characteristic of any public diplomacy message that we have, 
but it is one part of the message, because----
    Senator Voinovich. When we began the global war on 
terrorism, the President said that we wanted democracy in Iraq. 
That is one of the goals that we had. Now, we seem to be 
talking just stability.
    Mr. Leiter. Yes, sir.
    Senator Voinovich. And there is an appearance out there 
that we just kind of backed off this effort after we had 
elections.
    Mr. Leiter. Senator, I don't want to dispute people's 
perceptions because perceptions are reality in this case. 
Certainly, my experience with the President and senior 
leadership is that democracy agenda has not changed in the 
least. Now, I do believe we have to make sure if people 
perceive that it has, that will be a challenge.
    I also want to stress that is one part of a message that 
will appeal to one section of the community. We have to have 
many other messages and speak to the entire community, because 
there are some individuals who could be at risk for the 
activities we have talked about, for becoming violent 
extremists, that may not actually be drawn or stopped or 
countered through a pure democracy message. It is a series of 
messages that--some of which we may feel a little bit 
uncomfortable with at times. But if we are serious about 
countering that radicalization process, we have to be ready to 
do that.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thanks very much, Senator Voinovich. 
Thanks for giving time to this hearing.
    Director Leiter, thank you for your testimony. I think we 
are going to have to close the hearing here, but I really 
appreciate what you are doing, particularly this, I think, 
pioneering work on counter-radicalization. I think you are 
really on the front lines of the attempt to get at the 
ideological underpinnings of Islamist extremism and terrorism, 
and I hope you will come back at some point and tell us what 
your conclusions are and how you are trying to transport the 
product, if you will, the result, down to the field so that if 
there is a young Muslim American, like Mr. Nawaz in England, 
growing up with grievances, that he not turn to violent 
Islamist extremism as the expression of those grievances. But I 
thank you very much for your work.
    We are going to leave the record of the hearing open for 15 
days for additional questions from Committee Members or 
statements that witnesses want to add to the record.
    For now, that concludes our business. The hearing is 
adjourned.
    Mr. Leiter. Thank you.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4123.001

[GRAPHIC] [TIFF OMITTED] T4123.002

[GRAPHIC] [TIFF OMITTED] T4123.003

[GRAPHIC] [TIFF OMITTED] T4123.004

[GRAPHIC] [TIFF OMITTED] T4123.005

[GRAPHIC] [TIFF OMITTED] T4123.006

[GRAPHIC] [TIFF OMITTED] T4123.007

[GRAPHIC] [TIFF OMITTED] T4123.008

[GRAPHIC] [TIFF OMITTED] T4123.009

[GRAPHIC] [TIFF OMITTED] T4123.010

[GRAPHIC] [TIFF OMITTED] T4123.011

[GRAPHIC] [TIFF OMITTED] T4123.012

[GRAPHIC] [TIFF OMITTED] T4123.013

[GRAPHIC] [TIFF OMITTED] T4123.014

[GRAPHIC] [TIFF OMITTED] T4123.015

[GRAPHIC] [TIFF OMITTED] T4123.016

[GRAPHIC] [TIFF OMITTED] T4123.017

[GRAPHIC] [TIFF OMITTED] T4123.018

[GRAPHIC] [TIFF OMITTED] T4123.019

[GRAPHIC] [TIFF OMITTED] T4123.020

[GRAPHIC] [TIFF OMITTED] T4123.021

[GRAPHIC] [TIFF OMITTED] T4123.022

[GRAPHIC] [TIFF OMITTED] T4123.023

[GRAPHIC] [TIFF OMITTED] T4123.024

[GRAPHIC] [TIFF OMITTED] T4123.025

[GRAPHIC] [TIFF OMITTED] T4123.026

[GRAPHIC] [TIFF OMITTED] T4123.027

[GRAPHIC] [TIFF OMITTED] T4123.028

[GRAPHIC] [TIFF OMITTED] T4123.029

[GRAPHIC] [TIFF OMITTED] T4123.030

[GRAPHIC] [TIFF OMITTED] T4123.031

[GRAPHIC] [TIFF OMITTED] T4123.032

[GRAPHIC] [TIFF OMITTED] T4123.033

[GRAPHIC] [TIFF OMITTED] T4123.034

[GRAPHIC] [TIFF OMITTED] T4123.035

[GRAPHIC] [TIFF OMITTED] T4123.036

[GRAPHIC] [TIFF OMITTED] T4123.037

[GRAPHIC] [TIFF OMITTED] T4123.038

[GRAPHIC] [TIFF OMITTED] T4123.039

[GRAPHIC] [TIFF OMITTED] T4123.040

[GRAPHIC] [TIFF OMITTED] T4123.041

[GRAPHIC] [TIFF OMITTED] T4123.042

[GRAPHIC] [TIFF OMITTED] T4123.043

[GRAPHIC] [TIFF OMITTED] T4123.044

[GRAPHIC] [TIFF OMITTED] T4123.045

[GRAPHIC] [TIFF OMITTED] T4123.046

[GRAPHIC] [TIFF OMITTED] T4123.047

[GRAPHIC] [TIFF OMITTED] T4123.048

[GRAPHIC] [TIFF OMITTED] T4123.049

[GRAPHIC] [TIFF OMITTED] T4123.050

[GRAPHIC] [TIFF OMITTED] T4123.051

[GRAPHIC] [TIFF OMITTED] T4123.052

[GRAPHIC] [TIFF OMITTED] T4123.053

[GRAPHIC] [TIFF OMITTED] T4123.054

[GRAPHIC] [TIFF OMITTED] T4123.055

[GRAPHIC] [TIFF OMITTED] T4123.056

[GRAPHIC] [TIFF OMITTED] T4123.057

[GRAPHIC] [TIFF OMITTED] T4123.058

[GRAPHIC] [TIFF OMITTED] T4123.059

[GRAPHIC] [TIFF OMITTED] T4123.060

[GRAPHIC] [TIFF OMITTED] T4123.061

[GRAPHIC] [TIFF OMITTED] T4123.062

[GRAPHIC] [TIFF OMITTED] T4123.063

[GRAPHIC] [TIFF OMITTED] T4123.064

[GRAPHIC] [TIFF OMITTED] T4123.065

[GRAPHIC] [TIFF OMITTED] T4123.066

[GRAPHIC] [TIFF OMITTED] T4123.067

[GRAPHIC] [TIFF OMITTED] T4123.068

[GRAPHIC] [TIFF OMITTED] T4123.069

[GRAPHIC] [TIFF OMITTED] T4123.070

[GRAPHIC] [TIFF OMITTED] T4123.071

[GRAPHIC] [TIFF OMITTED] T4123.072

[GRAPHIC] [TIFF OMITTED] T4123.073

[GRAPHIC] [TIFF OMITTED] T4123.074

[GRAPHIC] [TIFF OMITTED] T4123.075

[GRAPHIC] [TIFF OMITTED] T4123.076

[GRAPHIC] [TIFF OMITTED] T4123.077

[GRAPHIC] [TIFF OMITTED] T4123.078

[GRAPHIC] [TIFF OMITTED] T4123.079

[GRAPHIC] [TIFF OMITTED] T4123.080

[GRAPHIC] [TIFF OMITTED] T4123.081

[GRAPHIC] [TIFF OMITTED] T4123.082

[GRAPHIC] [TIFF OMITTED] T4123.083

[GRAPHIC] [TIFF OMITTED] T4123.084

[GRAPHIC] [TIFF OMITTED] T4123.085

[GRAPHIC] [TIFF OMITTED] T4123.086

[GRAPHIC] [TIFF OMITTED] T4123.087

[GRAPHIC] [TIFF OMITTED] T4123.088

[GRAPHIC] [TIFF OMITTED] T4123.089

[GRAPHIC] [TIFF OMITTED] T4123.090

[GRAPHIC] [TIFF OMITTED] T4123.091

[GRAPHIC] [TIFF OMITTED] T4123.092

[GRAPHIC] [TIFF OMITTED] T4123.093

[GRAPHIC] [TIFF OMITTED] T4123.094

[GRAPHIC] [TIFF OMITTED] T4123.095

[GRAPHIC] [TIFF OMITTED] T4123.096

[GRAPHIC] [TIFF OMITTED] T4123.097

                                 <all>

</pre></body></html>
